<html>
<title> - ACCOUNTABILITY AND LESSONS LEARNED FROM THE TRUMP ADMINISTRATION'S CHILD SEPARATION POLICY</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]





 
                   ACCOUNTABILITY AND LESSONS LEARNED

                 FROM THE TRUMP ADMINISTRATION'S CHILD

                           SEPARATION POLICY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                          OVERSIGHT AND REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2021

                               __________

                            Serial No. 117-1

                               __________

      Printed for the use of the Committee on Oversight and Reform
      
      
      
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     


                       Available on: govinfo.gov,
                         oversight.house.gov or
                             docs.house.gov
                             
                             
                             
                             ______                       


                  U.S. GOVERNMENT PUBLISHING OFFICE 
43-714 PDF                WASHINGTON : 2021                             
                             
                             
                   COMMITTEE ON OVERSIGHT AND REFORM

                CAROLYN B. MALONEY, New York, Chairwoman

Eleanor Holmes Norton, District of   James Comer, Kentucky, Ranking 
    Columbia                             Minority Member
Stephen F. Lynch, Massachusetts      Jim Jordan, Ohio
Jim Cooper, Tennessee                Paul A. Gosar, Arizona
Gerald E. Connolly, Virginia         Virginia Foxx, North Carolina
Raja Krishnamoorthi, Illinois        Jody B. Hice, Georgia
Jamie Raskin, Maryland               Glenn Grothman, Wisconsin
Ro Khanna, California                Michael Cloud, Texas
Kweisi Mfume, Maryland               Bob Gibbs, Ohio
Alexandria Ocasio-Cortez, New York   Clay Higgins, Louisiana
Rashida Tlaib, Michigan              Ralph Norman, South Carolina
Katie Porter, California             Pete Sessions, Texas
Cori Bush, Missouri                  Fred Keller, Pennsylvania
Danny K. Davis, Illinois             Andy Biggs, Arizona
Debbie Wasserman Schultz, Florida    Andrew Clyde, Georgia
Peter Welch, Vermont                 Nancy Mace, South Carolina
Henry C. ``Hank'' Johnson, Jr.,      Scott Franklin, Florida
    Georgia                          Jake LaTurner, Kansas
John P. Sarbanes, Maryland           Pat Fallon, Texas
Jackie Speier, California            Yvette Herrell, New Mexico
Robin L. Kelly, Illinois             Byron Donalds, Florida
Brenda L. Lawrence, Michigan
Mark DeSaulnier, California
Jimmy Gomez, California
Ayanna Pressley, Massachusetts
Vacancy

                     David Rapallo, Staff Director
                       Russ Anello, Chief Counsel
                       Elisa LaNier, Chief Clerk

                      Contact Number: 202-225-5051

                  Mark Marin, Minority Staff Director
                                 ------                 
                                 
                         C  O  N  T  E  N  T  S

                              ----------                              
                                                                   Page
Hearing held on February 4, 2021.................................     1

                               Witnesses

The Honorable Michael E. Horowitz, Inspector General, U.S. 
  Department of Justice

    Oral Statement...............................................     6

Opening statements and the prepared statements for the witnesses 
  are available in the U.S. House of Representatives Repository 
  at: docs.house.gov.

                           INDEX OF DOCUMENTS

                              ----------                              

  * First Focus statement for the record; submitted by Rep. 
  Johnson.

  * ``Biden Surge: 3,500 Migrants Caught at Border Daily, `I'm 
  Scared at What's Coming','' , The Washington Examiner; 
  submitted by Rep. Biggs.

  * ``Biden Administration Prepares to Open an Overflow Facility 
  for Migrant Children,'' news, CNN; submitted by Rep. Biggs.

  * ``Eleven Iranians Arrested in Arizona After Jumping U.S.-
  Mexico Border,'' article, The Washington Times; submitted by 
  Rep. Biggs.

  * Letter from Rep. Biggs to the Honorable Alejandro Mayorkas, 
  the U.S. Department of Homeland Security, dated February 4, 
  2021; submitted by Rep. Biggs.

The documents entered into the record during this hearing are 
  available at: docs.house.gov.


                   ACCOUNTABILITY AND LESSONS LEARNED

                 FROM THE TRUMP ADMINISTRATION'S CHILD

                           SEPARATION POLICY

                              ----------                              


                       Thursday, February 4, 2021

                  House of Representatives,
                 Committee on Oversight and Reform,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:15 a.m., via 
Webex, Hon. Carolyn Maloney [chairwoman of the committee] 
presiding.
    Present: Representatives Maloney, Norton, Lynch, Connolly, 
Krishnamoorthi, Khanna, Ocasio-Cortez, Tlaib, Porter, Bush, 
Davis, Wasserman Schultz, Welch, Johnson, Sarbanes, Speier, 
Kelly, Lawrence, DeSaulnier, Gomez, Pressley, Comer, Jordan, , 
Hice, Grothman, Cloud, Foxx, Gibbs, Higgins, Norman, Sessions, 
Keller, Biggs, Franklin, Herrell, and Donalds.
    Chairwoman Maloney. Welcome, everyone, to today's remote 
hearing.
    Pursuant to House rules, members will appear remotely via 
Webex. I know you are all familiar with Webex by now, but let 
me remind everyone of a few points.
    First, you have been using active view for our hybrid 
hearings. This will still work, but grid view will give you a 
better perspective in a remote hearing. If you have any 
questions about this, please contact committee staff.
    Second, we have a timer that should be visible on your 
screen. Members who wish to pin the timers to their screens 
should contact committee staff for assistance.
    Third, the House rules require that we see you. So, please 
have your cameras turned on at all times.
    Fourth, members appearing remotely who are not recognized 
should remain muted to minimize background noise and feedback.
    Fifth, I will recognize members verbally, but members 
retain the, retain the right to seek recognition verbally. In 
regular order members will be recognized in seniority order for 
questions.
    Last, if you want to be recognized outside of regular 
order, you may identify that in several ways. You may use the 
chat function to send a request, you may send an email to the 
majority staff, or you may unmute your mic to seek recognition.
    Obviously, we do not want people talking over each other, 
so my preference is that members use the chat function, like 
email, to facilitate formal verbal recognition.
    Committee staff will ensure that I am made aware of the 
request and I will recognize you.
    We will begin the hearing in just a moment when they tell 
me they are ready to begin the live stream.
    [Pause.]
    Chairwoman Maloney. The committee will come to order. 
Without objection, the chair is authorized to declare a recess 
of the committee at any time. I now recognize myself for an 
opening statement.
    Today's hearing will examine the Trump administration's 
role in one of the darkest chapters in our country's history, 
as the entire world watched in horror while the U.S. Government 
literally ripped children from the arms of their parents.
    The Trump administration's child separation policy was 
intentional, demoralizing, and infuriating all at once. It was, 
in a word, evil. We are still living with the consequences of 
this disastrous policy today.
    As we convene this morning, hundreds of children still have 
not been reunited with their families and thousands more will 
forever carry the trauma of being pulled away from their 
parents with no idea if they would ever see them again.
    Inspector General Horowitz's report on this policy is an 
important contribution to a much-needed reckoning. I would like 
to thank Mr. Horowitz for appearing before the committee today 
and for the work he and his office have done on this 
investigation.
    As you know, Democrats on this committee have been 
demanding accountability for these child separations for years. 
In May 2018, shortly after the Trump administration started 
separating these children, I led a letter with our late 
colleague, Elijah Cummings, to then Chairman Gowdy seeking an 
investigation. He declined.
    In June 2018, then Ranking Member Cummings pleaded with our 
Republican colleagues to stand up to President Trump and stop 
these separations. He was begging for help. Elijah's appeal 
that day to our Nation's better angels was powerful and I would 
like to play some of his words today from that hearing.
    Inspector General Horowitz, you appeared before the 
committee that day so I am sure you will remember this.
    Can the clerk please play Elijah's video?
    [Video shown.]
    Chairwoman Maloney. In the years since Elijah's plea, the 
inhumanity of this policy has only deepened, as the inspector 
general's report makes strikingly clear. The trauma inflicted 
on these children and their families was not an accident. It 
was the point. The Trump administration chose to use these 
children as weapons against their own families.
    Attorney General Sessions and his top political appointees 
pursued their brutal zero tolerance policy, knowing full well 
that it would forcibly separate children from their parents.
    Separating children from their parents was meant to deter 
immigration, no matter how valid their claims of asylum.
    When U.S. Attorneys at the border expressed concern about 
what was being asked of them, Sessions ignored their pleas for 
help. He responded, and I quote, ``We need to take away 
children,'' end quote.
    Let me repeat that. Quote, ``We need to take away 
children,'' end quote. That is what he said. The inspector 
general's findings complement our committee's own 
investigation, which revealed that the Trump administration 
misled the public about their rationale for the policy while 
actively downplaying the harm caused by child separations.
    The IG's report makes clear that Trump administration 
compounded the harm of this policy through incompetence. They 
recklessly disregarded the objections of experts and failed to 
coordinate among agencies to track these children. They ignored 
obvious warnings from an earlier pilot program that experienced 
many of the same problems. It was a disaster from start to 
finish.
    Now we need answers and we need to finally reunite these 
children with their families. On Tuesday, President Biden 
announced a task force to do just that.
    It is astonishing to me that we had to wait for a new 
president to finally take this step. It is long, long overdue 
and we commend President Biden for rejecting the inhumanity of 
continuing to allow these children to live without their 
families.
    You may hear that child separation started not under the 
Trump administration but under the Obama Administration and 
that immigrants were kept in so-called cages long before 
President Trump came into office.
    It is true that during a particularly massive influx of 
refugees from Central America in 2014 temporary facilities were 
used to house migrants for 72 hours as they were processed and 
placed with family members or others.
    But what the Trump administration did was significantly 
worse. It was an intentional policy of separating kids and jail 
everyone for weeks and months before they were deported without 
their children, and it was meant to inflict trauma so that 
others wouldn't come here.
    The message was clear. Don't come here, and if you do, 
don't bring your children because we will take them away from 
you and you may never see them again. Although we can never 
undo what the Trump administration did, we must do everyone in 
our power to ensure that it never happens again.
    We must also heal the wounds, both physical and emotional, 
that the Trump administration inflicted on these children. It 
is the very least we can do, and I intend to pursue that goal 
vigorously.
    Before I close, I want to let everyone know that out of an 
abundance of caution I am currently quarantined after being 
exposed to someone with COVID. So, after the ranking member 
gives his statement, I will be turning the hearing over to Ms. 
Tlaib, who has generously agreed to manage the hearing on my 
behalf.
    I will still participate in the question and answer portion 
of the hearing but Ms. Tlaib will be managing the remainder of 
the hearing.
    So, with that, I now recognize the distinguished ranking 
member, Mr. Comer, for his opening statement.
    Mr. Comer. Thank you, Chairwoman Maloney, and before I 
begin my opening statement I would be remiss if I didn't, 
again, say publicly that Republicans on the House Oversight 
Committee want to have these committee hearings in person. We 
show up for work.
    We realize that these hearings are more effective, more 
efficient, and a lot more professional when they are held in 
person and, at the very least, we request that you would allow 
these hearings to be conducted like at least a third of the 
committee hearings in Washington and those are being held by 
hybrid where the members have the option of being in person if 
they want, and if they are concerned about COVID then they can 
do it remotely.
    So, again, I want to publicly request that our next hearing 
will be, at the very least, a hybrid hearing.
    Inspector General Horowitz, it is always a pleasure to have 
you before the House Oversight Committee. It is clear from the 
inspector general's review of the Department of Justice's 
implementation of the 2018 zero tolerance policy that there 
were communication breakdowns, failures to fully coordinate 
with the Departments of Homeland Security and Health and Human 
Services and an overall failure to account for and ensure 
communication between parents being prosecuted for illegal 
entry and their minor children.
    And I believe these implementation failures are part of the 
reason that President Trump ended this zero--this policy more 
than two years ago in June 2018 through an executive order 
reiterating that it was the administration's policy to keep 
families together whenever possible.
    The zero tolerance policy suffered from serious 
implementation flaws that should never be repeated. 
Unfortunately, the humanitarian and national security crisis on 
the southern border has raged on for nearly a decade, starting 
under former President Obama and then Vice President Biden's 
watch.
    Democrats in Congress have refused to close serious 
loopholes in our law that are fueling this crisis. One loophole 
all but guarantees that most parents who bring a minor child 
with them when illegally crossing the border will be released 
into the United States.
    This loophole encourages illegal immigrants to bring a 
child with them to the southern border so they are quickly 
released into the United States. The border crisis reached its 
peak in May 2019 when over 132,000 individuals were apprehended 
by Border Patrol agents just that month.
    The majority of those, 84,000, were part of family units 
including children in tow, and that was only one month. In 
Fiscal Year 2019, the Border Patrol apprehended over 850,000 
individuals illegally crossing the southern border with more 
than half being family units.
    Absent the congressional action needed to end the crisis, 
the Trump administration employed many tools to deter illegal 
entry into the United States and prevent human smugglers from 
exploiting victims for financial gain.
    President Trump implemented the migrant protection 
protocols where inadmissible aliens from Central America were 
returned to Mexico to await immigration court proceedings 
instead of being released into the interior of the United 
States for years.
    President Trump also implemented reforms to the asylum 
system to prevent illegal immigrants from gaming the system and 
filing frivolous applications. All of these reforms produced 
results and contributed to a large decrease in illegal 
migration during the latter month of 2019 into Fiscal Year 
2020.
    In Fiscal Year 2020, those reforms contributed to having 
the illegal immigration on the southern border to 400,000 
apprehensions while family unit apprehensions decreased 
substantially to 52,000, numbers which are still far too high, 
in my opinion.
    But illegal immigration is on the rise again, even as the 
Biden administration cancels these much-needed reforms by 
executive order and guts interior immigration enforcement by 
agency memorandum.
    On his very first day in office, President Biden's 
administration suspended enrollments in the migrant protection 
protocols program, publicly announcing the change.
    The Biden administration also sent a memorandum to 
immigration officials across the department of Homeland 
Security, completely gutting interior enforcement priorities. 
Even many convicted criminal aliens are no longer considered 
priorities for enforcement so long as they were released from 
criminal custody prior to January 20 of 2021.
    That memorandum also ordered a 100-day moratorium on almost 
all deportations of aliens with final orders of removal. 
Fortunately, a Federal judge has already temporarily enjoined 
the administration from carrying out that misguided policy.
    President Biden's first legislative proposal sent to 
Congress would give amnesty to over 11 million illegal aliens 
already living in the United States, some of whom only arrived 
weeks before.
    These illegal immigrants would receive immediate work 
authorization, competing with Americans for jobs at a time when 
we already have 11 million Americans unemployed and searching 
for work.
    Through these actions President Biden has sent the messages 
loud and clear to the world that our immigration laws can be 
violated without consequence. It is no wonder that we now see 
more caravans comprised of thousands of foreign nationals 
organizing to leave their homelands to come illegally to the 
United States.
    These radical far left immigration policies will continue 
to enable the humanitarian crisis at the border, place more 
children in peril as they are brought dangerously to the 
southern border, encourage more illegal immigration, and 
undermine the rule of law.
    I urge the Biden administration to reverse these reckless 
policies and do its job mandated by the Constitution to take 
care that the immigration laws of this country are enforced.
    I yield back.
    Ms. Tlaib.
    [Presiding.] Our witness today is Michael Horowitz, who is 
the inspector general for the Department of Justice. The 
witness will be unmuted so we can swear him in.
    Please raise your right hand, Mr. Horowitz.
    Do you swear or affirm that the testimony you are about to 
give is the truth, the whole truth, and nothing but the truth, 
so help you God?
    [Witness is sworn.]
    Ms. Tlaib. Let the record show that the witness answered in 
the affirmative. Without objection, your written statement will 
be made part of the record.
    With that, Mr. Horowitz, you are now recognized for your 
testimony.

   STATEMENT OF MICHAEL E. HOROWITZ, INSPECTOR GENERAL, U.S. 
                     DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Congresswoman.
    Chairwoman Maloney, Ranking Member Comer, members of the 
committee, thank you for inviting me to testify at today's 
hearing. The findings in our zero tolerance report results from 
our view of approximately 10,000 pages of emails, records, and 
handwritten notes, 45 interviews, and, prior to the pandemic, 
Southwest border site visits.
    As noted in the report, we were unable to interview former 
Attorney General Sessions because he had left the department 
shortly after the initiation of our review and the OIG doesn't 
have the ability to compel the testimony of former department 
employees.
    This inability to compel testimony has been a problem in 
many other unrelated OIG reviews and investigations, as this 
committee well knows, and is an issue that this committee has 
previously sought to address on a bipartisan basis.
    I hope the committee will reinitiate those efforts in order 
to promote accountability and transparency in all of our work.
    On April 6, 2018, Attorney General Sessions announced the 
zero tolerance policy for immigration offenses involving 
illegal entry into the United States. The policy required 
Southwest border prosecutors to accept all Department of 
Homeland Security criminal referrals for alleged illegal 
reentry violations, including misdemeanors.
    As we detailed in our report, this announcement was the 
culmination of a year-long effort by DOJ to increase criminal 
immigration enforcement on the Southwest border.
    The following month on May 4 at the urging of Attorney 
General Sessions, the Department of Homeland Security changed 
its policy of not referring family unit adults to DOJ for 
criminal prosecution.
    As described in our report, historically, when DHS 
apprehended adults with children, DHS, with the consent and the 
concurrence of Southwest border U.S. Attorneys, would not refer 
those adults to DOJ for criminal prosecution, largely to avoid 
separating parents from children.
    Instead, DHS would place the family unit in administrative 
deportation proceedings. However, as a result of the zero 
tolerance policy and the change in DHS policy, in May 2018 DHS 
began referring family unit adults to DOJ for criminal 
prosecution, resulting in thousands of child separations.
    Our review found that DOJ leadership failed to effectively 
prepare for or manage the implementation of the zero tolerance 
policy. We concluded that the department's single-minded focus 
on increasing immigration prosecutions through the zero 
tolerance policy came at the expense of careful and appropriate 
consideration of the impact of child separations.
    As we describe in our report, Attorney General Sessions 
understood that prosecution of family unit adults would result 
in children being separated from families, at least 
temporarily, and we determined that DOJ leadership was a 
driving force in DHS's decision to begin referring family unit 
adults for prosecution.
    We, additionally, concluded that DOJ leadership's 
expectations for how the family separation process would work 
significantly underestimated its complexities and demonstrated 
a deficient understanding of the legal requirements related to 
the care and custody of separated children.
    For example, Attorney General Sessions told the Southwest 
border U.S. Attorneys that prosecution of family unit adults 
would be swift and would be followed by immediate unification 
of the separated families.
    However, Federal law requires DHS to place separated 
children in the custody of the Department of Health and Human 
Services within 72 hours. Completing a prosecution within such 
a timeline was, in most cases, a practical and legal 
impossibility as the Southwest border U.S. Attorneys had, 
effectively, reported to DOJ headquarters.
    Yet, we determined that DOJ leadership did not take steps 
after receiving this information and learning about DHS's and 
HHS's difficulties in identifying the location of separated 
children to reconsider their prior assumptions about the 
ability to immediately reunify separated families.
    Additionally, we found that DOJ leadership did not 
effectively plan for or coordinate with the U.S. Attorneys, the 
U.S. Marshals, Health and Human Services, or the Federal courts 
prior to announcing the new policy.
    Indeed, we determined that those key stakeholders were 
provided with little to no advance notice of either the zero 
tolerance policy or the decision to prosecute adult family unit 
members.
    Our report makes three recommendations to the Department of 
the U.S. Marshals Service and they concurred at all three of 
those recommendations.
    Thank you again for the opportunity to testify today and I 
would be pleased to answer any questions that the committee may 
have.
    Ms. Tlaib. Thank you. The chair now recognizes Chairwoman 
Maloney for five minutes for questions.
    [Technical issue.]
    Chairwoman Maloney.--Testimony today.
    Inspector General Horowitz, I would like to start with a 
very simple question. Did AG Jeff Sessions and other top DOJ 
officials know that the zero tolerance policy would separate 
children from their families?
    Mr. Horowitz. Our report found that they did know in 
advance at announcing the child--in advance of announcing the 
zero tolerance policy in April.
    Chairwoman Maloney. Wow. Your report found that AG Sessions 
and his advisors at DOJ were a, quote, ``driving force'' in 
pushing DHS to start separating children at the border by 
referring family members for prosecution.
    What did you mean by the term ``driving force?''
    Mr. Horowitz. So, what we found was, as you indicated, that 
in advance of announcing the zero tolerance policy in April, in 
early April, Attorney General Sessions' expectation was that it 
would lead to the referral of adult members traveling with 
children.
    After the announcement, that didn't immediately occur and 
there were continued meetings, as we detail, in that April to 
May 4 time period when DHS finally announced that he intended 
to make such referrals and that during that time period it was 
Attorney General Sessions' and the department's leadership that 
was pushing the Department of Homeland Security to make that 
change.
    Chairwoman Maloney. Also based on your report it appears 
that Attorney General Sessions and other DOJ officials knew 
exactly what would happen because they had already done it 
before. A 2017 zero tolerance pilot program called El Paso 
Initiative led to the separation of hundreds of children in 
that area.
    Your report says DOJ officials knew in 2018 that the 
government had been unable to reunify children who were 
separated during pilot program. Is that right?
    Mr. Horowitz. Congresswoman, yes. The department had a 
pilot program where two U.S. Attorneys' office with the Border 
Patrol had a pilot program called the El Paso Initiative out of 
Western District of Texas and the district in New Mexico that 
had identified many of the issues that later came to light in 
2018 following the advent of the zero tolerance policy.
    What we found is there was a briefing for the department in 
December 2017. But the takeaway from the department was only 
the positives and no one was asking about the challenges that 
resulted in the U.S. Attorneys' office and DHS stopping that 
policy in 2017.
    Chairwoman Maloney. And yet, Attorney General Sessions 
touted this program as a success in pushing for broader 
separations at a White House meeting in May 2018, correct?
    Mr. Horowitz. That was part of the talking points, that is 
correct, explaining that it was a positive effort without being 
aware of or understanding all of the issues that led to its 
secession.
    Chairwoman Maloney. And that was the whole point of the 
zero tolerance policy, to use children as weapons against their 
families. Your report revealed the disturbing May 28 phone call 
between Attorney General Sessions and five U.S. Attorneys.
    The U.S. Attorneys on the call took notes of his comments 
and they wrote, and I quote, ``We need to take away children. 
If you care about kids, don't bring them in. Don't give them 
amnesty. Don't give amnesty to kids, to people with kids,'' end 
quote. Let me repeat, ``We need to take away children.''
    Mr. Horowitz, these notes indicate that Attorney General 
Sessions told these U.S. Attorneys that taking away children 
was necessary to deter their parents from coming to the U.S. Do 
you agree?
    Mr. Horowitz. We found several instances, Chairwoman, where 
references were made to this being an important deterrent 
effort, that being one of them, during the call that Attorney 
General Sessions had with the U.S. Attorneys.
    Chairwoman Maloney. So, your report affirms that these 
child separations were an expected, even desired, outcome of 
the zero tolerance policy. Your testimony today is absolutely 
critical and it is appalling.
    I am truly sorry to the thousands of children and their 
families who continue to suffer because of these purposeful 
acts directed by officials at the highest levels of government.
    So, essentially, children who had done nothing wrong 
themselves were punished, separated from their families, jailed 
and traumatized, as a way to warn other innocent people who had 
not done anything wrong themselves.
    Punishing the innocent to scare the innocent is so un-
American. The cruelty of this program was not an unintended 
mistake. It was the whole purpose.
    IG Horowitz, I want to thank you for your very important 
testimony and for the critical work that you and your office 
did on this important report.
    I may have gone over so please give Mr. Comer additional 
time. Thank you. I yield back.
    Ms. Tlaib. The gentleman from Arizona, Mr. Gosar, is 
recognized for five minutes.
    Mr. Gosar. Thank you, Chairwoman. I certainly appreciate 
it.
    I am glad the majority chose the topic of illegal 
immigration for our first substantial hearing. The American 
people deserve to know what is going on at our border. The 
focus is child separation policy during the Trump 
administration and how we need to learn our lesson.
    Great. Let us find out where this policy comes from because 
we haven't gone far enough back in history, and I always like a 
good history lesson.
    The policy of separating children can be traced back to the 
Clinton Administration's settlement of Reno v. Flores. This 
court case dealt with INS's detention and release of 
unaccompanied minors. The court ruled in favor of INS 
separation policies, yet the Clinton Administration decided to 
settle the litigation.
    According to Homeland Security, this settlement allowed the 
agency to detain unaccompanied minors for only 20 days before 
releasing them to the Department of Health and Human Services, 
which places the minors in foster or shelter situations until 
they locate a sponsor.
    The problem was worsened in 2016 under Loretta Lynch as AG 
when the liberal Ninth Circuit interpreted the settlement to 
include minors unaccompanied and accompanied by their parents.
    Here we have the separation. Folks, now the floodgates are 
open to separate these children from their parents and Trump 
hadn't even taken office.
    Not to mention the loophole that is already in place of 
catch and release where we give these folks a court date and 
there is nothing forcing them to show up, a loophole that was 
codified in the Refugee Act in 1980, put together by a 
government entirely controlled by Democrats.
    Because of this, Trump instituted a zero tolerance policy 
to ensure we didn't just catch and release these people just to 
be lost in the interior of our country.
    Attorney General Sessions said that the zero tolerance 
policy would be used as a deterrent for potential smugglers and 
illegal immigrants. Wouldn't you agree?
    I have actually visited with parents in Guatemala and El 
Salvador where cartel members have actually confiscated their 
children and the parents were forced to follow.
    Following this policy change, family separation became a 
targeted attack. So, if you want to ask me what I have learned 
from Trump's policy of separation--of separating children, I 
have learned that it didn't start with him and that major 
immigration reform is needed to fix these underlying problems.
    When you don't fix something like catch and release, you 
hurt everyday Americans. I don't know--I don't need to go over 
the same platitudes of why illegal immigration hurts American 
workers because we all know them.
    Not only are American workers affected, but the people 
brought over are experiencing incredible hardships. There are 
countless examples, reports and testimoneys of people that have 
been trafficked over the border for illicit drug or sexual 
purposes, making the policy horrifying and, frankly, 
dehumanizing.
    In addition, we are seeing folks being recycled through the 
process, thanks to our mainstream media. If you have a kid by 
your side of the border, you can't be separated with your adult 
companion and you must be free to seek refuge with that same 
individual.
    DNA testing at the border has raised the scrutiny for being 
inaccurate or, at best, inconclusive. But why is it wrong for 
us to know if these people are even related? Don't we owe it to 
the children to make sure that that is the process?
    If the tests are supposedly inaccurate, we, obviously, 
agree on the premise of finding familial ties. So, let us make 
it a priority to improve that testing.
    The Biden administration has announced that children will 
no longer be separated from their parents at the border. At the 
end of the day, this is window dressing that will be lapped up 
by the adoring media.
    What are these plans to deal with families crossing the 
border now? Will they be detained together? If released, what 
will compel them to show up to their court hearings?
    Will we increase testing for DNA at the border? What about 
COVID? Will these individuals even be tested at the border?
    No offense, Mr. Horowitz. I love seeing you. But you are 
not the individual who needs to be answering these questions if 
we truly have this emergency. That is why I urge the--why I 
bring it to the chairwoman.
    Madam Chairwoman, I challenge you to bring folks from the 
Biden administration before this committee to answer questions 
we would all like to know, because simply halting the 
separation of children at the border is the equivalent of 
putting a Band-Aid on a bullet wound.
    And with that, I yield back.
    Ms. Tlaib. I now recognize myself for five minutes for 
questions.
    Inspector General Horowitz, thank you again for being with 
our committee. I would like to focus, as the chairwoman did, on 
the 2017 El Paso Initiative that you discuss in your report.
    From March to November 2017, the U.S. Attorney in the 
Western District of Texas and the Border Patrol office in that 
region conducted an initiative that, contrary to DHS policy at 
the time, directed the prosecution of parents who arrived with 
children.
    So, Inspector General, how was this initiative similar to 
the zero tolerance policy later implemented by DOJ and DHS?
    Mr. Horowitz. So, it was begun, as you indicated, in 2017 
because of discussions that occurred between DHS, Border 
Patrol, and the U.S. Attorneys' offices in western Texas and 
New Mexico about concerns and questions as to whether 
individuals coming with children should be given a complete 
pass for potential criminal prosecutions, the concern being 
that perhaps some individuals were using children to come here 
without--as a means by which to avoid criminal prosecution.
    So, the idea was to set up a discretionary program where 
Border Patrol would consider certain factors, certain 
aggravating factors, and then refer those cases to the U.S. 
Attorneys for consideration.
    Ultimately, that was the program by which the U.S. 
Attorneys didn't accept all of the cases but exercised 
discretion over which ones to take, and subsequent reports 
indicated that somewhere between 15 percent and about a third 
of those cases were accepted for prosecution.
    Ms. Tlaib. And you already testified that the DOJ 
leadership was aware of the existence of the initiative.
    Mr. Horowitz. That is correct.
    Ms. Tlaib. Yes. Throughout your review, did you uncover any 
evidence that AG Sessions or other DOJ leadership were actually 
concerned about child separation?
    I know you called it, like, agitation or whatever they 
called dehumanizing immoral un-American policies that they 
implemented in this. Did you see any concern in your report by 
the Attorney General's Office and the leadership there about 
the separation?
    Mr. Horowitz. What we found was that they were aware that 
that would be a result of this and our concern, as we detail in 
the report, is that they didn't take the time or undertake the 
opportunity to consult with stakeholders like the U.S. 
Attorneys who handled the El Paso Initiative, like HHS, like 
the courts, or the U.S. Attorneys or the Marshals Service 
themselves, which are department components so that they could 
familiarize themselves with what the issues were likely to be 
despite those being presented in April and May.
    Ms. Tlaib. Inspector General, actually, I know in your 
report that you, in an interview with your office, a senior 
advisor to the attorney general Gene Hamilton actually was 
quoted saying, ``It is going well,'' that the El Paso 
Initiative was going well.
    Now, I don't know about you all here today. Personally, I 
can't imagine describing the taxpayer-funded campaign designed 
to terrorize migrant families as going well.
    As your report notes, the DOJ tore apart about 280 families 
by pursuing this initiative. These cases involved 146 children 
five or younger. Is that correct?
    Mr. Horowitz. That is correct.
    Ms. Tlaib. Including 11 babies who were taken away from the 
only family they have ever known. In Detroit, we call that 
inexcusable cruelty.
    As one official wrote to the acting U.S. Attorney in the 
region at the time, they said, quote, ``We have now heard of 
taking breastfeeding defendant moms away from their infants. I 
did not believe this until I looked at the duty log and saw 
that the fact that we had accepted persecution on moms with 
one-and two-year-olds.''
    I just want my colleagues to just let that sink in for a 
second. The acting U.S. Attorney himself commented that history 
would not judge prosecuting family units kindly. And yet, here 
he went ahead and did it anyway, tearing hundreds of families 
apart in the process.
    Inspector, based on this evidence examined during your 
investigation could you briefly describe Attorney General 
Sessions' and DOJ leadership presented and characterized the El 
Paso Initiative to the other administrative officials?
    Mr. Horowitz. Well, in terms of how they characterized it, 
as you indicated in the talking points we saw, it was 
referenced as being a positive outcome, the positive outcome 
being that there were increased prosecutions, resulting in 
metrics that showed decreased border crossings and that that 
was the positive.
    What was--what they failed to be aware of discussed was, as 
you indicated, the problems that were readily apparent once 
that program got underway the DHS and HHS were having trouble 
reunifying parents with their children and that that was 
resulting in court issues, court challenges, and problems that 
ultimately led to actually DHS unilaterally stopping the 
program.
    That information wasn't discussed or, as far as we could 
tell, even briefed at any significant level to department 
leadership.
    Ms. Tlaib. Thank you, Mr. Horowitz.
    I now recognize the gentleman from Georgia, Mr. Hice, is 
recognized for five minutes.
    Mr. Hice. Thank you, Madam Chair. I appreciate that. And 
Mr. Horowitz, always great to see you. Thanks for joining us 
again.
    You know, apart from the comments that have been made by 
the chairwoman earlier to be absolutely outrageous, the reality 
is that if my Democratic colleagues genuinely wanted to improve 
the conditions of these children then they would partner with 
us, quite frankly, to try to fix a broken immigration system, 
to speak out against some of the recent moves by President 
Biden that will only add further chaos at the border and 
further incentivize more illegal immigration from taking place. 
There is a tremendous amount of misinformation and, quite 
frankly, hypocrisy that is surrounding this entire issue.
    For example, the first controversial so-called kids in 
cages policy started under the Obama Administration, not under 
President Trump, and yet, some of my Democratic colleagues 
pulled out pictures of 2014 under the Obama/Biden 
administration of kids in cages and tried to attach that to 
President Trump.
    That is an outrage. It is an absolute hypocrisy underway. 
It was President Obama's DACA program that sparked the surge of 
illegal immigration at our southern border. The pictures of 
children in these cages, literally, they were being warehoused 
and that was taking place under the Obama Administration.
    And in the surges the chairwoman acknowledges was taking 
place a number of family units--of course, we are talking about 
adult aliens who were traveling with children, they were 
apprehended at the border.
    In fact, those numbers skyrocketed under the Obama 
Administration. People saw these family units were being 
released into the interior of our country with catch and 
release.
    How do you stop illegal immigration when you release them 
into our borders? That was taking place under the Obama 
Administration and that led to child recycling rings which, 
personally, I have seen on some of my visits to the southern 
border where these children are used multiple times to escort 
adults illegally into our country and then, of course, they 
were released.
    In fact, in 2019, DHS identified some 4,800 fraudulent 
families. Under President Trump in June 2018, through executive 
order Trump tried to keep these families together while the 
immigration litigation process was unfolding.
    But, unfortunately, now, under the Biden administration, we 
are only watching the problem exacerbated as broken illegal 
immigration system that we have is being exposed.
    We are now watching under Biden his policies are going to 
weaken our border security. It will weaken our interior 
enforcement while at the same time incentivizing more people to 
come here illegally.
    And, as already been mentioned, he is proposing 11 million 
people who are here illegally to receive amnesty without 
closing any loopholes, by the way. This is just an outrage.
    Just this week--just this week, the Biden administration is 
opening an HHS overflow facility for unaccompanied children on 
the U.S.-Mexico border.
    In 2019, this very same facility that is reopening, in 2019 
one of my colleagues on this committee referred to that same 
facility as a concentration camp.
    I mean, that is just an absolute outrage. So, are we, now 
that Biden is going to use this same facility for the same type 
of children, is this now the proper terminology, first, to 
refer to this as the Biden concentration camps?
    I have not heard a word of Democrats referring to it as 
concentration camps anymore. In fact, we have another caravan, 
as we all know, headed to our border right now from Honduras 
with thousands of people, and this whole thing is just an 
outrage to me.
    Mr. Horowitz, I don't have much time left. Let me just ask 
you, with those who are coming to the country legally, went 
through the legal process, were any children separated from 
their parents in that legal process?
    Mr. Horowitz. Not that I know of, although I would have to 
check to see how much we looked into that.
    Mr. Hice. There was just argument about children being 
separated was a deterrent not to legal immigration but to 
illegal immigration, and separating the children was part of 
people--of stopping them from coming here illegally. Is that 
correct?
    Mr. Horowitz. That is correct. It was intended to be a 
deterrent on illegal immigration.
    Mr. Hice. Thank you. I see my time has expired. I yield 
back.
    Ms. Tlaib. The gentlewoman from District of Columbia, Ms. 
Norton, is recognized for five minutes.
    Ms. Norton. I thank you.
    Inspector General Horowitz, first, let me understand what 
this shorthand means, this zero tolerance policy from the 
administration--from the Trump administration. That was to 
prosecute all cases of illegal entry including those seeking 
asylum and including separation of parents from children. Is 
that what we mean by zero tolerance policy?
    Mr. Horowitz. As envisioned and implemented by Attorney 
General Sessions and his policy, that was the intention.
    Ms. Norton. So, let us understand what we were talking 
about, and let me be the first to admit that every 
administration has had problems with people coming illegally 
into this country and we still have that problem, and it is 
incumbent upon us to make sure that people don't just flow into 
the country.
    So, this has been and continues to be a problem for 
Democratic and Republican administrations. The question becomes 
how do you handle it.
    So, the fallout from this zero tolerance policy, certainly, 
didn't come as any surprise. As I understand it, officials from 
DHS and DOJ, Department of Justice, had been discussing this 
policy at least in 2017. That is about a year before it was 
announced.
    Now, Inspector General Horowitz, your report found that the 
Department of Justice leadership failed to coordinate, and I am 
trying to understand what that means, with other agencies 
before they launched the policy.
    So, could you explain your finding of the issues caused by 
the lack of coordination, coordination with what agencies? What 
should have been done?
    Mr. Horowitz. Certainly, Congresswoman.
    So, we found issues with--internally within the department 
with two primary components, the Southwest border U.S. 
Attorneys and the Marshals Service, both of which bore the 
brunt of handling the additional prosecutions that came with 
the zero tolerance policy as well as the child separation.
    The U.S. Attorneys had to figure out how to handle the 
substantial increase in caseload while handling all of their 
other cases. The Marshals Service had to figure out how to 
house these new defendants and how to manage them safely.
    Externally, the Justice Department should have and needed 
to coordinate better with, for example, HHS. It was dealing 
with Homeland--with Department of Homeland Security, as we 
detail, but it was going to fall on the Department of HHS, 
Health and Human Services, to deal with the separated children.
    And what we found is that even as the DOJ was interacting 
with HHS on a variety of issues, it didn't interact with them 
or discuss with them the plans for the child separation.
    DHS learned about this when I was announced.
    Ms. Norton. Yes, that is important. I just want to, 
finally, talk about the--what you say about the children 
because both sides are concerned about that.
    According to your report, the officials at the Department 
of Justice demonstrated what you call a deficient understanding 
of the legal requirements related to the care and custody of 
separated children.
    So, I would like to know what were the legal requirements 
that you are referring to and what could a better understanding 
of those requirements have done to change what happened to 
these children?
    Mr. Horowitz. So, the legal issue here is the requirement, 
first, under the Flores settlement and then under statutory 
provisions that implemented some of those settlement provisions 
that require DHS to transfer unaccompanied children to HHS, to 
Health and Human Services, within 72 hours.
    As we detail in the report, Attorney General Sessions 
indicated in his comments that he believed prosecutions could 
happen almost instantaneously, certainly, within the 72 hours, 
and we have comments from other senior officials indicating a 
similar belief.
    That belief, as we detail here, was not only legal--a legal 
impossibility in most cases but also a practical one. Indeed, 
when the U.S. Attorneys found out that child separations would 
occur, they informed the department that they could not 
undertake most of these cases within the 72 hours. So, the 
assumption, belief, that this could be done in a day or within 
72 hours was mistaken and reflected an absence of understanding 
of the law.
    Had that been known or had they asked in advance, Attorney 
General Sessions or others, they would have learned about those 
problems prior to implementation.
    Ms. Norton. Thank you, Inspector Horowitz. Thank you very 
much for your report. It is very helpful.
    And I know my time has expired.
    Ms. Tlaib. The gentleman from Wisconsin, Mr. Grothman, is 
recognized for five minutes.
    Mr. Grothman. Can you hear me?
    Ms. Tlaib. Yes.
    Mr. Grothman. OK. Good.
    Thank you for being here. I will emphasize, again, what my 
ranking members says. I wish we could all see you in person 
and, hopefully, we can do that soon.
    The border concerns me a great deal. I know it is a very 
hazardous border right now. I was down there last week, and I 
think they told us in the Tucson sector alone there were a 
hundred people who dehydrated to death. So, a very dangerous 
situation last year.
    Do we know how many children have crossed the border, say, 
in the last year compared to three or four years ago?
    Mr. Horowitz. Congressman, I don't have the data on, you 
know, recent crossings. We could enquire at DHS, which would be 
the keeper of that data.
    Mr. Grothman. Yes, I thought that--I thought you might just 
have it. As I understand it, the total number of people 
crossing the border has dropped from, like, 100,000 to 10,000 
per month in that time.
    Do you know what percentage or how many, say, in an average 
month how many children wind up being processed at the border?
    Mr. Horowitz. Unfortunately, Congressman, I don't have any 
of those current numbers or even the month to month 
fluctuations. I know we saw in this review how the numbers 
fluctuated and how the department was tracking them. But I 
would have to ask DHS for those--for that data.
    Mr. Grothman. OK. I will give you another question. Do you 
know how common it is--maybe this is another thing for those 
guys--how common it is for girls to be molested on the trip 
crossing the border?
    Mr. Horowitz. Yes. Again, Congressman, that would be 
something that we could inquire and, certainly, be able to 
verify that.
    Mr. Grothman. Yes. Well, OK, once we have them here, do we 
know how often the children are here with both parents and/or 
one parent?
    Mr. Horowitz. I don't know the answer to that question on 
the numbers for one versus two.
    Mr. Grothman. OK. I will tell you why I think it is so 
relevant. As I understand the problem we have at the border is 
that sometimes a child may come with one parent and the other 
parent may, say, still be back in Central America, and at least 
we are allowed to believe that some Central American countries 
don't like that.
    Has there been any effort ever made if a child shows up 
with one parent and not another parent what the judicial system 
in the Central American countries think of that?
    Mr. Horowitz. I am not aware of our--of people being 
aware--understanding of what the foreign government might think 
of that. Again, we could certainly followup to see if DHS or 
the department has that kind of information.
    Mr. Grothman. At least I have been told and, of course, I 
just get this talking to the Border Patrol folks, that, well, 
we would not like it if, say, one parent took a child and went 
from the United States to Nicaragua, right, because 
frequently--I mean, right?
    Mr. Horowitz. In fact, there are laws on that but----
    Mr. Grothman. There are laws on that, and at least I have 
been told that going the other way the Central American 
countries don't like us getting in--I mean, they don't like it 
if one parent in Central America comes across here.
    Do you know how many unaccompanied--well, how many minors 
does the--does our judicial system deal with every year? Do we 
have that?
    Mr. Horowitz. You know, that we could, certainly, find from 
the department's immigration office, the judicial office here. 
I don't know. It does fluctuate. Obviously, here there were 
thousands in the various--in the short time period at issue. 
So----
    Mr. Grothman. The judicial system, I guess--do you get 
involved at least a little bit in every minor who comes here, 
or no?
    Mr. Horowitz. We did not get involved in every single case 
but primarily because, as you know, DHS has first tier 
responsibility here and it would only come to the department if 
there is a referral and it ends up in the criminal courts or 
executive office for immigration.
    Mr. Grothman. Total, how many minors did you deal with, 
say, in the last year, that you wind up getting involved with 
because a referral is made?
    Mr. Horowitz. Well, we found here in that just six-week 
period or so there were at least 3,000 children separated 
through referrals. So, we were looking at, you know, just that 
six-week period or so, and that number we got from the DHS 
reports.
    Mr. Grothman. OK.
    Mr. Horowitz. So, I can't vouch for those myself. I can 
only tell you we relied derivatively on that.
    Mr. Grothman. Yes. Can you tell me one more time when those 
six weeks were?
    Mr. Horowitz. So, it would have been, roughly, from the May 
4 announcement----
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Horowitz. So, it would have been, roughly, from the May 
4 time period to June 20 when President Trump issued the 
executive order that, largely, ceased the referrals.
    Mr. Grothman. OK. Thank you.
    Ms. Tlaib. The gentleman from Massachusetts, Mr. Lynch, is 
recognized for five minutes.
    Mr. Lynch. Good morning, Madam Chair. I appreciate your 
courtesy.
    Mr. Connolly. Could I--could I interrupt? Could I interrupt 
the--is the chair not--oh, excuse me. I am sorry. Go ahead, 
Steve. Forgive me for interrupting.
    Mr. Lynch. That is OK. That is OK.
    Thank you, Madam Chair. So, I am in three hearings right 
now so I am going to have to jump off after I get my answer. 
But so members of this committee had an opportunity to 
participate in CODEL Escobar. We were actually--we went to the 
El Paso/Juarez border crossing.
    We had an opportunity to meet with a lot of families. This 
was just when the MPP program, which is the return to Mexico 
policy, was implemented.
    Mr. Horowitz, I want to thank you for your wonderful work. 
You are a frequent flyer to our committee and I consider you a 
partner in oversight, and I had an opportunity to read your 
report.
    According to your report, one of the factors, and Ms. 
Holmes Norton actually hit on this a little bit, one of the 
factors that you described that exacerbated this separation 
problem and continues to be a problem because of the failure of 
reunification efforts was the disconnect between the U.S. 
Marshals Service, you know, and prosecution on that side 
versus, you know, under Flores, as you noted, HHS has the 
responsibility for the care and custody of these kids after 72 
hours.
    So, they are on--first of all, they weren't communicating 
but they are also on different timelines. Is that--isn't that 
correct?
    Mr. Horowitz. That is correct, and, in fact, as we noted, 
you couldn't expect HHS--I am sorry, the Marshals Service, to 
prepare in advance with HHS when you didn't tell the Marshals 
Service any of this was going to happen.
    Mr. Lynch. Yes, this sort of landed in their lap, you know, 
unexpectedly and unannounced, and so they were scrambling to 
try to deal with this.
    You know, I am just curious. It is disappointing that you 
don't have access to Attorney General--former Attorney General 
Sessions, and maybe we got to look at that whole process as 
well so that you can do these, you know, deeper investigations 
and have cooperation from all of the witnesses.
    But that assumption that they were going to be able to do a 
parallel track, OK, so they could--they could, you know, 
prosecute, apparently, the parents under criminal statute 
within 72 hours so that their kids, who were going to be put in 
HHS custody within 72 hours so that that separation would not 
occur.
    You know, as absurd as that sounds to me, it would be 
helpful if you gave your opinion. Was that willful ignorance? I 
mean, knowing the mechanics of both processes, it seems to me 
that there is no way someone could realistically assume that 
that was going to happen. I mean, that is just fantasy, in my 
opinion.
    But you had a chance to look at it more closely and I would 
like to hear your thoughts on that.
    Mr. Horowitz. Congressman, we found it was a practical and 
legal impossibility in almost all circumstances, and had there 
been, frankly, minimal due diligence by talking to the U.S. 
Attorneys themselves, the Marshals Service, DHS, HHS, the 
judges, the courts who were not consulted in advance, that 
would have been readily understood.
    But I would like to say also as a former AUSA prosecutor 
myself, I am a little out of date. I was a prosecutor in the 
1990's. But the notion that you could expect to put someone in 
the Marshals Service custody, get them in front of--identify 
who they really are, right.
    You have got a person coming across the border. The whole 
purpose of this is to make sure that before you prosecute 
someone for a misdemeanor violation that they aren't, for 
example, a drug dealer or a--some other serious violator of the 
law that would result in a felony and a much more serious 
felony, right.
    So, the Marshals Service needs time, some time, to figure 
out who this person is, if they really are who they say they 
are. Then you have got to get them to a prosecutor. The 
prosecutor has to write a complaint, get them to the court.
    You got to get a judge. The judge has to take not only a 
guilty plea but then has to sentence the defendant, and that 
assumes the defendant is willing to plead guilty. That 
assumption would be faulty. Not everybody shows up and says, I 
am pleading guilty right away. They get a defense lawyer.
    As we noted, the courts are where it had a problem. They 
needed to find defense lawyers for all these new defendants, 
right. So, you need to get a defense lawyer lined up.
    There is all sorts of things that had to happen, and the 
notion that all of that could happen in the majority of these 
cases, let alone many, in 72 hours, as we found we thought was 
a practical and legal impossibility.
    Mr. Lynch. Thank you, Madam Chair, for your indulgence. 
Thank you so much.
    Thank you, Mr. Horowitz. Keep up the good work.
    Mr. Horowitz. Thank you, Congressman.
    Ms. Tlaib. The gentleman from Texas, Mr. Cloud, is 
recognized for five minutes.
    Mr. Cloud. Thank you, Chairwoman. I appreciate the topic on 
what is an extremely important topic: our national security at 
the border, the humanitarian crisis that has been ongoing for 
many years.
    We, in Texas, experience this maybe in a way that much of 
the Nation doesn't. While it does affect the entire nation, we 
feel the impact in our communities very--early on and in a way 
that is sometimes dramatic.
    I get texts and messages all the time from people 
throughout the district. Our sheriffs meet on a weekly basis to 
discuss how the communities even hours away from the border, 
are affected each week in their communities by the cartel 
activity that goes on along the border.
    And I do think it is important to put this whole discussion 
in a context because there is a notion that what we see at the 
border, in a sense, is an organic movement which includes 
families coming to the border to seek a better life and, 
certainly, no doubt, when you are talking about thousands there 
is an element of it.
    But the real broader picture and more correct picture is 
that this is a cartel-driven mechanism, that the caravans we 
are seeing coming to the border are, indeed, recruited by the 
cartels.
    The cartels charge for anyone who comes through the border. 
They profit from it, and our assets at the border, both in 
dealing and helping with children but also in protecting and 
securing our border, find themselves outmatched when it comes 
to assets, oftentimes when it comes to manpower, when it comes 
to financing, to deal with the cartel activities who have more 
assets, more funding, oftentimes to deal with this.
    And what is heartbreaking is that, of course, the cartels 
have no regard for human life at all, and so they not only 
charge the migrants who are coming from a financial 
perspective, but I have seen the videos where migrants have 
been, after going through the process, after paying, coming 
here are put in stash houses. I have seen where they have been 
stripped and beaten, and those videos sent to their families 
demanding more money be sent to them.
    And it is heartbreaking what happens. There is a report 
from Doctors Without Borders, and according to the report it 
said more than two-thirds of those making the journey north 
become victims of violence along the way and nearly one-third 
of the women are sexually assaulted along the journey.
    Ronald Vitiello, the former chief of the U.S. Border Patrol 
and former acting director of the Immigration and Customs 
Enforcement, told this committee in July 2019--he said there is 
a significant percentage of families who are pretending to be 
related when they are, in fact, not.
    So, this is a big problem. The word is out. People know 
that if they send or bring a child that their end result is to 
be released into the United States.
    Indeed, there was an investigation by the Homeland Security 
along with the Border Patrol that began a family fraud 
initiative in El Paso and they put out a report that outlined 
fraudulent families, false documents being presented, and the 
bottom line was that the investigations indicate that 
transnational cartels and individuals have entered into schemes 
with biological parents to dangerously transfer their children 
ranging in age from four months to 16 years to unrelated adults 
so they can pose as family units to further their human 
smuggling criminal enterprises and to fraudulently obtain U.S. 
immigration benefits.
    And so what happens is someone shows up at the border with 
a child claiming to be theirs and we have no idea if they 
really are. It is semi-humorous except for the context of what 
we are talking about. One family, when I was on a border visit, 
had showed up and they had presented themselves as someone who 
crossed the border for the first time and the child being their 
child.
    And the child needed to go to the restroom and so the agent 
said, well, would you like me to show you where the restroom 
is. First time in the facility, supposedly. The child is, like, 
oh, I know where the restroom is already. The child had been 
there multiple times and had been part of their rent-a-kid 
program that the cartels had incorporated to send that child 
through with an unaffiliated unfamilied adult.
    I have been to a facility just outside my district that has 
200 young ladies who have been through the border and have been 
a part of this scheme, and it was heartbreaking to talk to the 
agents who said that a substantial part, if not the majority of 
them, had been abused along the journey.
    And so the question remains for us what kind of policies--
--
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Cloud. My apologies.
    Ms. Tlaib. The gentleman from Virginia, Mr. Connolly, is 
recognized for five minutes.
    Mr. Connolly. Thank you, Madam Chairwoman, and thank you, 
General Horowitz, for always speaking truth to power and doing 
it without equivocation or manipulation. You are a model of 
what an independent IG is supposed to be and do. Thank you.
    Mr. Horowitz. Thank you, Congressman.
    Mr. Connolly. And let me also say we have heard the word 
outrage and hypocrisy from colleagues on the other side of the 
aisle. I guess I want to demur.
    I want to reserve my outrage for the fact that the United 
States of America found itself putting children in cages and 
deliberately using children as pawns to separate them from 
their families for an ideological commitment to a rigid 
immigration policy that was inhumane. That is where my outrage 
is, and I think that is where yours ought to be, too.
    Mr. Horowitz, I want to focus on a December 2017 memo 
discussed in your report titled ``Policy Options to Respond to 
Border Surge of Illegal Immigrants'' or ``Immigration,'' excuse 
me.
    It was prepared by DHS and provided to Gene Hamilton, a top 
aide to then Jeff Sessions, attorney general of the United 
States. It discussed multiple immigration policy options using 
unclear language including, quote, ``increase prosecution of 
family unit parents and separate family units.''
    Were these both, essentially, child separation policies, 
Mr. Horowitz?
    Mr. Horowitz. In practice, they would have been, yes.
    Mr. Connolly. And is that--was that just no different than 
previous administration policies with respect to children?
    Mr. Horowitz. What we found was that, historically, DHS, 
with the concurrence of the department's U.S. Attorneys on the 
Southwest border did not transfer adults for criminal 
prosecution--instead, using administrative deportation 
proceedings.
    There were some exceptions. There is a GAO report that 
identified a .3 percent figure in I think it was 2016. But, 
generally speaking, that was--the policy was to not send 
adult----
    Mr. Connolly. So, in other words, this was quite a change 
from previous standing policy and practice?
    Mr. Horowitz. At least since 1992 we saw that that was the 
case.
    Mr. Connolly. I think that is really important because some 
would have us believe that this is no different than previous 
policy, and your own report finds quite the opposite. It was a 
drastic change in previous policy and deliberate.
    According to your findings, did DHS thoroughly vet the 
policy?
    Mr. Horowitz. DHS, apparently, did not. We--both through 
our work at DOJ and looking at the DHS OIG report, they 
identified serious problems with how DHS coordinated with the 
Health and Human Services agency.
    Mr. Connolly. And, nonetheless, they went forward with the 
policy?
    Mr. Horowitz. That is correct.
    Mr. Connolly. Hmm. According to your report, the memo was 
sent by the then DHS chief of staff to Gene Hamilton. We have 
already mentioned the key aide to Attorney General Jeff 
Sessions at that time. But you didn't name the individual in 
your report. Is that correct?
    Mr. Horowitz. That is correct.
    Mr. Connolly. All right. But I was curious and I looked 
into who was that DHS chief of staff at the time. Well, and lo 
and behold, it was none other than Chad Wolf, the same Chad 
Wolf who held himself out as the acting secretary of DHS, even 
though GAO and multiple courts found that he was actually 
acting illegally because he had not been confirmed for that 
position.
    He also has quite a checkered history in terms of ending 
the DACA program protecting Dreamers, suspending New Yorkers' 
ability to enroll in Trusted Travelers programs, and diverting 
dollars, millions of dollars, of taxpayer dollars on President 
Trump's famous border wall.
    And, of course, he was a key architect in the policy we are 
describing, putting children at risk and using them as pawns in 
trying to enforce his views about immigration and who should or 
should not come across the border.
    It is a shameful episode in American history. It, 
certainly, is not something that made Americans proud and it is 
certainly not something that won us admiration overseas with 
friend and foe alike.
    I yield back.
    Ms. Tlaib. The gentlewoman from North Carolina, Ms. Foxx, 
is recognized for five minutes.
    Ms. Foxx. Thank you, Madam Chairman.
    Thank you, Mr. Horowitz, for being with us. In your 
testimony, you mentioned that the Department of Justice failed 
to effectively prepare for or manage the implementation of the 
zero tolerance policy. Is that correct?
    Mr. Horowitz. That is correct.
    Ms. Foxx. You also noted that the department's single-
minded focus on increasing immigration prosecutions during the 
zero tolerance policy came at the expense of careful and 
appropriate consideration of the impact of child separations. 
How could the department have been better prepared for the 
implementation of this policy?
    Mr. Horowitz. Well, I think, first and foremost, they 
should have consulted with their own components at, namely, 
their U.S. Attorneys on the Southwest border, their marshals on 
the Southwest border, as well as their counterparts at Health 
and Human Services and DHS to make sure there was an ability to 
reunite children after they were separated and the impact on 
the Marshals Service, the prosecutors, and the courts on the 
substantial influx of cases that would be coming as a result of 
these prosecutions?
    Ms. Foxx. OK. I was going to followup with what would 
prevent the same challenges. I am assuming you are saying 
coordination is the way to go with the local people?
    Mr. Horowitz. That is correct. It seems obvious, I think, 
to everybody. But it just didn't happen here. In fact, as we 
know here, HHS said they learned about the policy from media 
reports.
    Ms. Foxx. OK. So, your report made three recommendations to 
the Department of Justice. Can you please outline those 
recommendations?
    Mr. Horowitz. Yes. So, we--the initial recommendation to 
the department was before undertaking a significant policy 
change such as this that it should consult with its components 
and make sure it has--and other executive branches of agencies 
and make sure it has those policies in place.
    Again, that seems obvious. But as you know from some of the 
prior hearings here on other matters sometimes we make those 
obvious recommendations because, in fact, we find that problems 
arose. So, that is one recommendation.
    The second is to the Marshals Service to create internal 
policies that would better prepare the Marshals Service for 
interacting with HHS with regard to children and adults that 
are separated because we found here, when the Marshals Service 
learned of this new policy it actually didn't have any of its 
own policies in place for how to deal with HHS.
    And then the third recommendation is for the marshals to 
interact with HHS to come up with an MOU or other understanding 
so that, again, if there are separations that occur that adult 
defendants in Marshals Service custody can communicate with 
children that are in HHS custody.
    Ms. Foxx. Well, would you--I think, again, you have 
described some of the ways in which you expect the Department 
of Justice to work in the future to coordinate with the 
affected stakeholders.
    I don't know what reaction you have gotten from the 
department, but do you expect that those things to happen that 
you have recommended?
    Mr. Horowitz. We did, and we got full cooperation from the 
administration--the outgoing administration Acting Attorney 
General Rosen, who was deputy attorney general at the time. 
They concurred in all three recommendations and agreed with our 
findings.
    Ms. Foxx. Thank you. Are there any particular policies 
affecting multiple components or executive agencies that you 
are aware of in which this recommendation will be a key to a 
policy success or failure?
    Mr. Horowitz. Well, I think, most importantly, it is the 
interactions with the U.S. Attorneys and the executive office 
of the U.S. Attorneys, as we found here.
    There were multiple occasions where they actually did 
highlight concerns in advance of implementation, briefly in 
advance of implementation, within days, and those weren't 
considered.
    And I think a more robust process--in fact, as we say in 
here, that is what we were told after the fact, the recognition 
by former Deputy AG Rosenstein and others that that in fact 
should have occurred, seeing now on paper what had happened.
    Ms. Foxx. Right. Thank you very much, Mr. Horowitz.
    And Madam Chair, I yield back.
    Mr. Horowitz. Thank you, Congresswoman.
    Ms. Tlaib. The gentleman from California, Mr. Khanna, is 
recognized for five minutes.
    [No response.]
    Ms. Tlaib. The gentleman from Georgia, Mr. Johnson, is 
recognized for five minutes.
    Mr. Johnson. I am sorry. Did the gentlelady say Congressman 
Johnson?
    Ms. Tlaib. Yes, Mr. Johnson. You are now recognized for 
five minutes.
    Mr. Johnson. All right. Let me pull up my screen. Bear with 
me. All right.
    All right. Thank you. I want to thank the chairwoman for 
holding this hearing today and I want to thank Inspector 
Horowitz for testifying.
    Mr. Horowitz. Thank you.
    Mr. Johnson. And I would like to begin by saying that I 
visited detained immigrants at more than one of the private 
for-profit detention centers set up by the Trump administration 
to profit from the prolonged misery inflicted by Jeff Sessions, 
Rod Rosenstein, John Kelly, and others who sought to discourage 
asylum seekers and others from seeking entry into our country 
at the southern border by implementing a cruel and barbaric 
policy requiring that children, even infants, be ripped from 
the arms of their parents and placed in private for-profit 
detention facilities, sometimes literally in cages.
    The first step toward creating a system that prioritizes 
human dignity is figuring out what went wrong, and I am looking 
forward to doing that that today.
    Inspector Horowitz, your review found that Attorney General 
Sessions, Deputy Attorney General Rosenstein, and others 
intended that their zero tolerance policy would cause children, 
including babies, to be separated from their families. Isn't 
that correct?
    Mr. Horowitz. That was, certainly, the understanding when 
they announced--when Attorney General Sessions announced the 
zero tolerance policy that was his understanding.
    Mr. Johnson. And your report documented that the purpose of 
this abusive child separation policy was to deter asylum 
seekers and others from seeking entry into the United States at 
the southern border. Isn't that correct?
    Mr. Horowitz. We found, in talking points and other 
records, that that was part of the reason for doing it was as a 
deterrent effect.
    Mr. Johnson. And your report found that the Trump 
administration moved forward on its child separation policy 
without the sort of planning and coordination required to 
humanely and properly care for the thousands of children, 
including infants, who were snatched away from their parents. 
Isn't that correct?
    Mr. Horowitz. That is correct.
    Mr. Johnson. And, Inspector Horowitz, your report also 
concluded that the Trump administration moved forward on its 
child separation policy without the sort of planning and 
coordination required that would have enabled the Trump 
administration to reunite the thousands of infants and children 
who had been taken away from their parents with their parents. 
Isn't that correct?
    Mr. Horowitz. They, certainly, didn't take the steps that 
could have helped them try and do that. What they could have, 
ultimately, done remained to be seen. But you are correct, 
Congressman.
    Mr. Johnson. Thank you. And, Inspector Horowitz, isn't it a 
fact that as of today literally hundreds of children taken away 
from their parents under the Trump administration child 
separation policy remains separated from their parents today? 
Is that true?
    Mr. Horowitz. That is my understanding from court filings 
and ongoing litigation, Congressman.
    Mr. Johnson. Unfortunately, the stain of this inhumane 
Trump administration child separation policy will remain etched 
on the forehead of America for posterity, and I am gratified 
that the Biden administration is taking steps to put an end to 
this sordid chapter in the Nation's history and Congress should 
work to do the same.
    Madam Chair, I also ask unanimous consent to enter into the 
record a statement from the organization First Focus on 
Children containing recommendations on how to ensure we never 
repeat what happened with the zero tolerance policy, including 
adopting a best interest of the child standard for all 
immigration decisions.
    Ms. Tlaib. Without objection.
    Mr. Johnson. Thank you, and with my remaining time, I would 
like to turn, briefly, to the section of your report that 
details how the zero tolerance policy burdened an already 
strained Federal court system, resulting in less judicial 
oversight and more chaos at the border.
    One striking detail from your report is that Federal judges 
in the Southern District of Texas, quote, ``begged,'' end 
quote, the U.S. Attorney and the then deputy assistant attorney 
general to bring their concerns about family separations to 
Deputy Attorney General Rosenstein.
    That is how bad it got, Federal judges begging the DOJ for 
help. Your report also noted that Deputy Attorney General 
Rosenstein participated in a few meetings organized by the 
Administrative Office of the Courts to address the impact of 
the child separation policy on the administration of justice.
    To your knowledge, did those meetings lead to any changes 
in how DOJ handled family separations?
    Mr. Horowitz. It did not result, as far as we found, in any 
changes. The change occurred on June 20 when the executive 
order was issued that, essentially, largely, ended the 
separations and a week later a court ruling that, effectively, 
did the same.
    Mr. Johnson. Thank you. And aside from what you mentioned 
in the report----
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Johnson. Thank you. I yield back.
    Ms. Tlaib. The gentleman from Ohio, Mr. Gibbs, is 
recognized for five minutes.
    Mr. Gibbs. Thank you, Madame Chair.
    First of all, I would like to say as a parent and a 
grandparent, anytime children are separated from their parents 
it is just heart wrenching, and this has, you know, been an 
issue past--previous administrations on the kids in cages and 
all that, and I want to associate myself with the remarks from 
Representative Cloud and Hice, both their remarks.
    But I was just down at the border last week and, you know, 
I think we have seen the border crossings drop. The illegal 
entries have dropped. We have got a better relationship with 
Mexico now.
    They have got, I guess, about 25,000 of their own troops on 
our southern border on their side that help, and one of the 
Customs agents there down on the border told us that in the 
last year or so that has really turned around, the 
relationship--the working relationship with Mexico.
    So, that is all good things that came out of the Trump 
administration and--seeing it drop.
    Now, my fear is what we ought to be doing, Madam Chair, is 
we ought to be calling in Biden administration officials to 
find out what they are going to do here on the border because 
when I was down there they stopped construction of the 30-foot 
wall and when you talk to border agents, you talk to ranchers, 
you talk to everybody, a stakeholder down there, they all say 
they need the fence.
    I like to call it a fence because it is really a fence 
because it has holes in it. It is not a wall. The 30-foot fence 
and with the technologies to go along with that, and that is 
what we ought to really be addressing because if we don't, we 
know there is a caravan coming up from Honduras right now and 
that we will see more issues with children being exploited by 
the cartels and all the other illegal criminal activity that 
goes on there, a humanitarian crisis that is going on at the 
border.
    We witnessed that. People, sex trade, the human trafficking 
trade, the drug trade, and that is the issue we ought to be 
addressing with the Biden administration to find out what their 
thoughts are and when are they going to start reconstruction, 
reimplementing the construction of the fence.
    And I also want to note that the new 30-foot fence, it 
saves taxpayers money because on border agent can patrol two 
linear miles of fence, and compared where there is no fence it 
takes three to five border agents to control one mile of border 
with no--with 50 percent less apprehension of drugs and illegal 
activity.
    So, this is common sense. I encourage all our members, 
especially on the other side of the aisle, go down there. Talk 
to the border agents. Find out what they are saying and what is 
happening down there. Talk to landowners and see what is going 
on.
    Because if we don't complete what we started here a few 
years ago--and we have seen results, the fence is working--we 
are going to see more and more incentives for the migrants to 
come up here looking for a better life and more and more of 
these issues that we are discussing today, and that is what we 
really need to address.
    And so I encourage, Madam Chair, to encourage members to go 
down to the border, talk to the border agents, talk to the 
stakeholders, and also we should bring in Biden administration 
officials and find out why they paused the construction of the 
fence that we know that works.
    And also when I was down there I saw a fence right next 
to--a new fence, and it was the same structure but it was 18 
feet, 12 feet shorter, and they--the border agents told me that 
was the Obama fence.
    And so, apparently, President Obama and then Vice President 
Biden at the time were for a fence before. Now they are against 
the fence. So -- but the fence works. The technology works.
    Let us help our border agents patrol it and let us stop the 
human trafficking crisis at the border, the drug trafficking, 
and so, you know, that would, obviously, stop at least with the 
topic of the day with child separation at the border and let us 
help these countries down there to improve their economies and 
disincentivize these people that want to come to the United 
States.
    On that fact, I will yield back, Madam Chair. But let us--
we ought to have hearings on what we are going to do at the 
border to stop the problem overall.
    Thank you.
    Ms. Tlaib. The gentleman from California, Mr. Khanna, is 
recognized for five minutes.
    Mr. Khanna. Thank you, Madam Chair.
    Thank you, Inspector General, for your work. I would like 
to ask you about the DOJ's failure to form a zero tolerance 
policy with any of the U.S. Marshals Service.
    If you could just explain, very briefly, what the zero 
tolerance policy was and how broad--what it was.
    Mr. Horowitz. So, the zero tolerance policies announced in 
April 2018 required U.S. Attorneys along the Southwest border 
to prosecute all illegal entry cases or attempted illegal entry 
cases referred to them by the Department of Homeland Security, 
even if they were misdemeanor violations.
    So, the intent was to prosecute every single case, 
misdemeanor or felony.
    Mr. Khanna. Give us an example of things, misdemeanors that 
were prosecuted? I mean, things that we had never done this 
before, right, in our country's history but what are examples 
of misdemeanors that started to get prosecuted?
    Mr. Horowitz. So, the difference between the misdemeanor 
and the felony, it is a misdemeanor to seek to cross the border 
illegally or to actually cross the border illegally in the 
absence of any abrogating factors such as if you don't have a 
prior felony or prior conviction, if you are not carrying drugs 
or guns or other paraphernalia.
    If you are simply crossing the border illegally, without 
any of those other overlays, that is a misdemeanor. 
Traditionally, those cases were handled through the 
administrative deportation process, not the criminal process. 
There were exceptions.
    There were occasions through certain efforts to seek to do 
those over the years. But those were the exceptions rather than 
the norm.
    Mr. Khanna. So, basically, then what you are saying is 
under the Reagan Administration and the Bush Administration, 
this other Bush Administration, these cases--it wasn't a 
blanket prosecution of everyone who came across the borders and 
what the Trump administration basically did was blanket 
prosecution. If you come across the border you are going to be 
prosecuted. Is that a fair----
    Mr. Horowitz. That is my general understanding. There could 
have been exceptions for particular U.S. Attorneys and 
particular unique circumstances. But our general understanding 
is that that was generally the case.
    Mr. Khanna. And when you are going to take such a move as 
overturning precedent that Reagan and Clinton and Bushes had 
set up that called for blanket prosecution, did they consult 
the U.S. Marshals Service when they took this position?
    Mr. Horowitz. They did not in advance of announcing the 
policy in April 2018.
    Mr. Khanna. And that is odd, right, because the U.S. 
Marshals Service is going to be, as part of the Department of 
Justice and they would be responsible for implementing this? 
Wouldn't you want to know what kind of burden this is going to 
put on your Marshals Service?
    Mr. Horowitz. It is critical. The marshals take custody of 
the defendant and they have to find a place for that defendant 
to have a jail cell. They are taken into the custody of the 
Justice Department through the Marshals Service.
    The Justice Department has a limited number of jail cells 
and if you are going to add hundreds of new defendants at each 
district, they have got to find places for those individuals.
    And as we detail here, it resulted in requiring them to 
triple bunk inmates in some instances and it ended up resulting 
in a $200 million plus shortfall for the Marshals Service.
    Mr. Khanna. What I found most shocking about your report 
is, though, they didn't have--they had no conversations, no 
discussions, correct, with----
    Mr. Horowitz. That is correct, in advance of that April 
announcement.
    Mr. Khanna. And the Marshals Service found in an assessment 
that we would--they would continue to provide the best level 
effort to comply but there would inevitably be, quote, ``a 
degradation of service and security.''
    Inspector General Horowitz, what is meant by a degradation 
of service and security?
    Mr. Horowitz. So, the impact on the Marshals Service, in 
addition to having to find bed space for the additional 
defendants, they also need marshals to help manage those 
defendants, right, and take them into custody and do all the 
processing.
    That meant pulling people off of other job 
responsibilities, which has a cascading effect on, as we noted 
here through various documents we saw, the Marshals Service 
ability to continue to go out and execute arrest warrants, 
which is a core Marshals Service function.
    Mr. Khanna. Hasn't it made us less secure as a country 
because of it diverting marshals' resources away from things 
that were critical?
    Mr. Horowitz. Well, as we note in here, that is certainly 
what the marshals expressed concern about, precisely that 
issue.
    Mr. Khanna. And that is because of the zero tolerance 
policy, correct?
    Mr. Horowitz. That that was one of the impacts on them of 
the zero tolerance policy regarding your concern.
    Mr. Khanna. The U.S. Marshals Service is about protecting 
just more than politicians. You are saying the zero tolerance 
policy wasn't just inhumane with the bed issue but actually 
made our country less secure, from their perspective, according 
to----
    Mr. Horowitz. Again, that is, you know, what we found in 
the records of the Marshals Service and what we were told by 
the Marshals Service.
    Mr. Khanna. And last question, they have a $210 million 
deficit today. Is that also because of this zero tolerance 
policy?
    Mr. Horowitz. So, they had a $227 million or so hole in 
their budget back in the 2018-2019 time period. Congress had to 
do an emergency appropriation for them and the department had 
to reprogram other moneys to make up for that hole in their 
budget so that they could pay their costs.
    Mr. Khanna. Thank you.
    Ms. Tlaib. The gentleman from Louisiana, Mr. Higgins, is 
recognized for five minutes.
    Mr. Higgins. Thank you, Chairwoman and Ranking Member 
Comer. Thank you for holding today's hearing regarding the DOJ 
IG report on the Trump administration's immigrant child 
separation policy.
    Our Founding Fathers delivered us a representative republic 
that welcomes any person to become a part of this great country 
and to participate in the American dream while balancing the 
rule of law.
    For decades our country has struggled with this balance. 
How do we as a country enforce our laws and principles and 
protect our citizens while at the same time maintaining decency 
and compassion for those that are truly seeking refuge in our 
country?
    This should be a bipartisan effort to determine that 
balance. In addition to being a member of this committee, I 
serve as a member on the Homeland Security Committee and as the 
ranking member of the Border Security Facilitation and 
Operations Subcommittee.
    I have seen in person the challenges we face at our 
Nation's southern border, and I have to say we have serious 
challenges that are only further complicated by the Biden 
administration's recent actions.
    In a video I am about to show you, you will see how, more 
than ever, we need a strong secure border. Letting thousands of 
immigrants come here illegally that serves no good purpose, 
especially our citizens and those that have come here legally. 
We are a nation of opportunity and that should be embraced and 
continued. But we are, first, a nation of law.
    I ask that committee staff please start the video.
    [Video shown.]
    Mr. Johnson. Madam Speaker, I have a point of order.
    Ms. Tlaib. The gentleman is not recognized.
    Mr. Johnson. Parliamentary inquiry, Madam Chair.
    Mr. Higgins. Madam Chair, reclaiming my----
    Ms. Tlaib. Will the gentleman please state the 
parliamentarian inquiry?
    Mr. Higgins. Madam Chair, please note the time.
    Ms. Tlaib. Yes, we will.
    Mr. Johnson. Thank you, Madam Chair.
    Is it permissible for a member to show a video that has not 
been shared with the--with the other party prior to airing it 
in the--in a full committee meeting? Is that permissible under 
our----
    Ms. Tlaib. Yes. Member Johnson, I believe that the video 
was reviewed, according to our rules, with our committee staff.
    Mr. Johnson. Thank you. I yield back.
    Ms. Tlaib. Mr. Higgins, you are now recognized.
    Mr. Higgins. Thank you, Madam Chair. I appreciate my 
colleague's concern. I would also appreciate in the future that 
the inquiry be restrained until a video that--obviously, we try 
and follow the rules around here--has been completed.
    Mr. Johnson. Well, it just seemed to be a hatchet job put 
together by the--put together by a partisan----
    Mr. Higgins. Reclaiming my time. Madam Chair, please note 
the--the chair lady get order in the committee, please?
    Ms. Tlaib. Mr. Higgins--time. Mr. Higgins, you are 
recognized.
    Mr. Higgins. Thank you, Madam Chair.
    Inspector General Horowitz, you are familiar with DOJ 
numbers, are you not? Do you know how many American citizens 
that are parents of minor children are incarcerated in American 
incarceration system today?
    Mr. Horowitz. Congressman----
    Mr. Higgins. In the interest of time, I will give you the 
answer. It is about 750,000 American parents of minor children 
are incarcerated in our jails today, in our country. About 10 
million arrests take place each year. These are DOJ numbers. 
About 600,000 of those are juveniles.
    When we make an arrest, do we ask that arrested person, 
where is your kid? I have to take you to jail. Let us stop and 
pick up your kid. Do we bring those children to a jail? The 
answer is no.
    When we arrest a juvenile, we contact that juvenile's 
parents. But if that juvenile is placed in a juvenile detention 
center, do we put that parent in that juvenile detention 
center? No.
    So, it is very clear that if you don't want to be separated 
from your family, I suggest you don't commit a crime that is 
going to cause you to get arrested, and I encourage the scores, 
hundreds of thousands, that intend to cross our southern border 
over the course of this next year----
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Higgins [continuing]. That if you bring a kid with you, 
expect to get separated from your child because we don't put 
children in jail----
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Higgins [continuing]. In America unless they have 
committed a crime.
    Thank you, Madam Chair.
    Ms. Tlaib. The gentlewoman from Missouri, Ms. Bush, is now 
recognized for five minutes.
    Ms. Bush [continuing]. And I thank you, Madam Chair, for 
convening this important hearing.
    As I sit here today, I am reminded of a time as a young 
mother when I lost sight of my daughter in a clothing store. It 
was only a matter of seconds, but I felt a feeling of doom, of 
absolute dread, thinking, where is my child. Is she hurt? Is 
she calling out for me? I felt like the world was crashing down 
on me.
    Now, imagine feeling that feeling for 1,034 days. That is 
how long it has been since this policy was first announced, 
since mothers, fathers, and families first feared never seeing 
their child again.
    I am also thinking about St. Louis and the many years I 
spent in the streets as an organizer in our hospitals, as a 
nurse, and in our safe houses of pastors, counseling families 
who have experienced trauma and violence.
    Family separation is rooted in our Nation's history, let us 
be clear, harking back to black children being torn from their 
mothers' arms at slave auction blocks, including the very 
courthouse that now forms part of the iconic St. Louis skyline.
    But these historic crimes against humanity didn't only 
happen in St. Louis. Our country has forcibly removed Native 
children from their families. We separated Japanese children 
from their parents in internment camps. The scars of white 
supremacy are a trauma in our Nation's DNA. It is a lasting 
trauma that will stay with these children and their families 
forever.
    Mr. Horowitz, your investigation revealed that former 
Attorney General Jeff Sessions was a driving force of the zero 
tolerance policy, and though Stephen Miller is not named in 
your report, let us not forget that he played a central role in 
designing and carrying out this policy.
    White supremacy is a disease that turns cruel and hateful 
ideas into cruel and hateful policies that affect people.
    Inspector General Horowitz, according to your report, at 
least two parents were told by officers that their children 
were being taken for a bath. That was the last time they saw 
their children.
    In your experience, is it ever appropriate for law 
enforcement to deceive parents about their minor children in 
this way?
    Mr. Horowitz. I can't think of a circumstance, 
Congresswoman, where that would be appropriate.
    Ms. Bush. Thank you.
    Did you find any evidence that AG Sessions or Deputy AG 
Rosenstein took any action to determine the trauma, the 
anxiety, and the isolation imposed on small children and all 
children as a result of this practice?
    Mr. Horowitz. Our concern was that there wasn't a 
sufficient effort to try and understand how this would happen 
and how it would impact the ability to reunify later and the 
mistaken understanding that could have been learned. But that 
simply couldn't happen promptly in order to ensure 
reunification in a timely manner.
    Ms. Bush. OK. Well, it has become strikingly clear that 
though the zero tolerance policy is over, the impact endures. 
This is especially the case given the lasting impacts of the 
criminal charges lodged against these parents.
    In your report, Mr. Horowitz, you described the DOJ's focus 
on increasing prosecutions as, quote, ``single-minded,'' end 
quote.
    Can you restate for this record, please, the Department of 
Justice--the Department of Justice knowingly enacted the zero 
tolerance policy with the understanding that it would impose 
stronger criminal charges on family unit adults and force 
children away from their parents. Is that correct?
    Mr. Horowitz. That is correct. That was, certainly, the 
understanding of Attorney General Sessions in our--as we found 
in our report when he announced the zero tolerance policy in 
April 2018 and his effort to encourage DHS to change its 
policy, which it did on May 4, to authorize or to start sending 
adult family members for criminal prosecution.
    Ms. Bush. So, in your estimation, would you say that this 
policy led to an increase in the number of felony and/or 
misdemeanor charges filed?
    Mr. Horowitz. Well, it certainly resulted in a substantial 
increase in the number of misdemeanors. I believe it also 
resulted in a significant increase in the number of felonies 
but I would have to followup on that.
    Ms. Bush. Mr. Horowitz, who would have the answers to these 
questions?
    Mr. Horowitz. Well, we can, certainly, get you the figures, 
Congresswoman, from here at the department on the increase in 
prosecutions. I just don't have them right in front of me.
    Ms. Bush. Thank you.
    I can never know the heartache of spending months and years 
without knowing if my child was in danger, hurt, or sick. But I 
do know any parent would do anything that they can to see their 
child again. It is essential that we reunite these families 
together.
    I strongly believe that we must remove the threat of 
criminalization and provide families with full amnesty and 
clear their records. This is the absolute least we can do.
    Thank you, and I yield back.
    Ms. Tlaib. The gentleman from Texas, Mr. Sessions, is 
recognized for five minutes.
    Mr. Sessions. Thank you very much. I assume I can be seen 
and heard at this time. Madam Chairman, I assume I can be.
    Ms. Tlaib. Yes, we see you.
    Mr. Sessions. Yes. Thank you very much.
    What a delight it is for me to be with you today. Mr. 
Horowitz, thank you very much.
    Mr. Horowitz, is this a practice that takes place at our 
airports all across the United States of America where there is 
a less than adult person that might be a minor child that is 
with an adult? Are they questioned about the status of what 
they are doing with that child?
    Mr. Horowitz. You are talking about with domestic flights 
in the U.S.?
    Mr. Sessions. Absolutely, at every single airport in the 
United States and port of entry in the United States of 
America.
    Mr. Horowitz. Mm-hmm. Yes, they are asked if the two of 
them are together and the relationship.
    Mr. Sessions. What would happen if I were to enter an 
airport with someone that was not my child? What process would 
take place here in the United States with American United 
States citizens?
    Mr. Horowitz. Well, I think if you are traveling 
domestically--I am not sure whether there would be much 
differently done. If you are with an adult and a child you 
don't necessarily have to be----
    Mr. Sessions. But you would be asked. You would be asked 
and expected to provide information, and when someone said, 
that is not my child, what would happen?
    Mr. Horowitz. Well, I am not sure what would happen on a 
domestic flight. Internationally, there are issues that result 
because of Federal laws about international parental kidnapping 
and other issues where you want to make sure before someone is 
allowed to leave the country with a child that they, in fact, 
have authority to go with that child inside the country.
    Mr. Sessions. Do you believe that that process or what 
should be that process for people who are entering the United 
States of America--there is some suggestion that we should not 
even ask who these people are and determine who they are.
    But if a person was not that direct parent, what should 
happen to that child and what should be the question that is 
asked and action by the United States Border Patrol?
    Mr. Horowitz. Well, let me say, this is--you know, 
obviously, this is a Department of Homeland Security Border 
Patrol, as you said, issue and policy. I am presuming that 
with--in any instance, they are looking to figure out who the 
two people are in actuality and, indeed, as we noted here and 
as I mentioned earlier, that is part of the issue with the 
assumption that all of this could have happened so quickly, 
right.
    That is precisely the issue with expecting a prosecution to 
happen in the same day, right. You want people to have that 
ability to know who people really are.
    Mr. Sessions. Right. But before you go to prosecution, I am 
talking about process.
    Mr. Horowitz. No, right.
    Mr. Sessions. I was down on the border in 1914, 1915, and 
1916. I saw these cages that are referred to as cages. It was a 
detention facility. It was placing people in areas until they 
could be properly vetted and looked at that they placed them in 
them, all along the border, especially in the Southern District 
of Texas, in the Western District of Texas, and these people 
were given food and clothing. But they were makeshift 
operations because of the overwhelming number of people who 
were there.
    Second, I saw firsthand how these agents would attempt to 
determine who was traveling with who, and many times it became 
a whisper about, say that is your child.
    But when people were then--under the Obama years, then 
agents took to really try and make sure that there was not a 
mismatch of child--moving children across illegally or an 
exploitation perspective.
    They would separate those people, especially with younger 
boys and younger girls, and they would have a very, very 
difficult time. These were some of the things we struggled with 
during President Obama's presidency and it was an overwhelming 
number.
    I want you to know that I applaud the work that you are 
doing. I applaud the work of being as a watchdog. But when tens 
of thousands of people come across and they are at the 
detention----
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Sessions. Thank you very much, Chairwoman.
    Ms. Tlaib. The gentleman from Vermont, Mr. Welch, is 
recognized for five minutes.
    Mr. Welch. Thank you very much. Thanks very much for your 
work, Inspector.
    The zero tolerance policy, obviously, was about 
intimidating families, and the zero tolerance policy, where it 
implemented as a tactic taking a child from the parent, was the 
most effective way of intimidating.
    Do you have any information about how it is that despite 
the fact they were going to implement this policy there was no 
systematic way to maintain knowledge as to where a child was 
sent, and we still have many children who are separated from 
their families?
    Mr. Horowitz. So, based on--according to court filings, 
there are--there is still an ongoing problem with reuniting 
children who were separated back during this 2018 time period 
with their adult family unit members, and it is precisely the 
problem with failing to consider these issues before you 
implement the policy, then waiting until afterwards to see what 
they are and, as we noted earlier, the 2017 El Paso Initiative 
highlighted some of the problems that DHS and HHS were having 
with keeping track of the children and their parents.
    Mr. Welch. So, do you--in your report, just describe what 
steps were not taken or even what steps were taken to have a 
coordinated approach so that leaving aside the immorality of 
taking children from parents, the absolute obligation that we 
had--this government had in using its authority to maintain 
information so that when there was going to be a reunification 
we would know who to call and where the child was. Was there 
anything in there that they did to be prepared for that?
    Mr. Horowitz. There was, frankly, little to nothing that we 
found that showed preparation for interagency coordination, 
U.S. Attorney coordination with other executive branch 
agencies, particularly HHS, or the courts on how to do this. 
There weren't the most rudimentary steps taken before the April 
announcement.
    Mr. Welch. All right. So, aside from the obvious cruelty of 
taking a child from parents, there was the incompetence in the 
administration of this cruel policy. Is that a fair statement?
    Mr. Horowitz. There was incompetence in failing to consider 
what the issues were and, frankly, the mistaken belief that you 
could do all this in a day, the prosecution, right.
    This was--it was, potentially, founded on the belief that 
you could get an adult from DHS custody to the Marshals Service 
custody, get them in front of the judge, have them plead--get 
them a lawyer, have them plead guilty, have them sentenced, and 
get them back to DHS within 72 hours so that the child wasn't 
separated and sent to HHS, and that, as we lay out here, was a 
practical impossibility in almost all cases.
    Mr. Welch. Well, I really appreciate the detail in your 
report because what it reveals, aside from the obvious cruelty 
of the policy, is that we had a government that was not paying 
attention to the function that an executive has to make things 
work as opposed to simply make pronouncements that had a 
political orientation.
    So, I thank you for your work, and I yield back.
    Mr. Horowitz. Thank you.
    Ms. Tlaib. The gentleman from Pennsylvania, Mr. Keller, is 
recognized for five minutes.
    Mr. Keller. Thank you, Madam Chair. I appreciate being part 
of the hearing today.
    However, I can't help but point out that while there were 
some problems with the zero tolerance policy, the Trump 
administration abandoned this initiative over two years ago and 
made thousands of pages of documents available to this 
committee for investigation.
    I would also note that a flawed policy rollout does not 
make border security any less important or make the 
consequences of open border policy any less dangerous and 
irresponsible.
    DHS concluded that border barriers are a critical component 
getting operational control of the border and allow Border 
Patrol agents to decide where border crossings take place and 
apprehend individuals on our own terms.
    Yet, the Biden administration has taken executive action to 
stop barrier construction, working firmly against congressional 
intent of appropriating funds specifically to construct a 
barrier along the southern border in the interest of national 
security.
    Mr. Horowitz, your report indicates that the rollout of the 
zero tolerance policy failed to consult various agencies about 
its details. In an effort to improve DOJ policy rollouts in the 
future, what specifically should be done to ensure better 
agency cooperation?
    Mr. Horowitz. Well, we made a recommendation as to that, 
that the department put in place a policy that makes it 
explicitly clear that--to the stakeholder to--the components of 
the department that when you undertake a significant policy 
change that cuts across DOJ components and executive branch 
agencies that you make sure to consult with them in advance.
    You know, as I noted earlier, that may seem obvious. But, 
as we note here, it didn't happen and----
    Mr. Keller. So, when did they make the change? When did 
that change in policy made?
    Mr. Horowitz. So, we are waiting for a report back from the 
department on what they have done to implement it. The outgoing 
acting attorney general, Mr. Rosen, indicated they would be 
taking that--undertaking that effort and we are expecting a 
report within the next month or two.
    Mr. Keller. So, the Trump administration had already made 
the decision to make that correction and have the coordination?
    Mr. Horowitz. They supported and agreed with the 
recommendation.
    Mr. Keller. OK. Several DHS personnel testified before this 
committee in 2019 recommending policy changes such as modifying 
the Flores settlement to allow us to keep immigrant families 
together past the 20-day threshold, improving the Trafficking 
Victims Protection Reauthorization Act by allowing the 
repatriation of children to noncontiguous countries, and 
challenging the credible fear standard to allow families to 
more easily prove an asylum issue.
    Can you speak to these recommendations and what overlap 
there might be with your report?
    Mr. Horowitz. Certainly, and, of course, the policy 
decision is Congress' and the executive branch. But what we 
found was that the provisions in the Flores settlement and that 
had been statutorily enacted, as you indicated, put time limits 
on how long children could be kept in custody with DHS 
detention facilities and a misunderstanding at the Justice 
Department at what that meant with the ability to undertake a 
criminal prosecution and reunify the parent with the child 
before the child was sent by DHS to Homeland--to Health and 
Human Services as required by the law.
    Mr. Keller. OK. Thank you.
    I yield back.
    Ms. Tlaib. The gentlewoman from Florida, Ms. Wasserman 
Schultz, is recognized for five minutes.
    Ms. Wasserman Schultz. Thank you. Sorry, my arrow was not 
going to my mute button.
    [Laughter.]
    Ms. Wasserman Schultz. Thank you so much, Madam Chair, and 
congratulations. You are doing a bang-up job.
    Inspector General Horowitz, I appreciate you appearing 
before the committee today. I would like you to help us 
understand who knew what and when as the zero tolerance policy 
was developed by the Department of Justice.
    I think the timeline could inform the motivation behind 
this policy. Attorney General Sessions announced the zero 
tolerance policy on April 6, 2018. According to your report, 
only two days earlier on April 4 Attorney General Sessions 
directed the creation of a memorandum that would accomplish 
this goal of a zero tolerance prosecution policy at the border.
    On that same day, a top DOJ official reached out to the 
five Southwest border U.S. Attorneys to ask if there was 
anything, quote, ``operationally objectionable.''
    So, my first question is when the staff policy directive 
was provided to those U.S. Attorneys on April 4, were they 
aware a zero tolerance policy would result in children being 
separated from their families?
    Mr. Horowitz. We were told by them and by the record we saw 
that they were not. They assumed that the policy at DHS, the 
long-standing policy would continue of not referring adult 
members, and no one said to them that there was any thought 
being given to changing that policy.
    Ms. Wasserman Schultz. OK. And were they made aware that 
such a policy would result in child separations before the 
formal announcement of the policy two days later?
    Mr. Horowitz. They were not made aware until at the 
earliest, roughly, May 1.
    Ms. Wasserman Schultz. Wow. OK. So, at the time the 
Department of Justice announced the zero tolerance policy, 
which is a change that would lead to the forced separation of 
thousands of children from their families, the very attorneys 
who were expected to carry it out were not informed of these 
dire and calamitous implications. Is that a fair assessment?
    Mr. Horowitz. That is correct, and I will add, 
Congresswoman, the policy they were shown on April 4 and that 
was announced on April 6, had a key phrase in there, which was 
``to the extent practicable.''
    So, it provided that they would--all cases would be 
prosecuted to the extent practicable, which the U.S. Attorneys 
told us they believed and others told us they believed gave 
them some discretion in deciding which cases to prosecute, 
recognizing they didn't still appreciate that that would also 
be including family referrals of adult family unit members.
    Ms. Wasserman Schultz. OK. And but--now this is extremely 
appalling. Your review found that Attorney General Sessions 
himself was aware that the implementation of zero tolerance 
would lead to the separation of families. He knew just what it 
would do. Isn't that right?
    Mr. Horowitz. That was, certainly, his intention when he 
announced the policy on April 6.
    Ms. Wasserman Schultz. And so because Sessions knew the 
chaos and suffering this policy would cause, he needed to hide 
and rush it out the door without any vetting. The cruelty of 
this policy was the point, and Jeff Sessions would not be 
deterred.
    The deception that former Attorney General Sessions used to 
cover up the vicious goals at the heart of this policy is 
deeply disturbing and for anyone who took part in or defends 
such a cold-blooded policy to this day, good luck settling up 
that merciless behavior with your maker.
    Thank you, Madam Chair. I yield back.
    Ms. Tlaib. The gentleman from Arizona, Mr. Biggs, is 
recognized for five minutes.
    Mr. Biggs. Thank you, Madam Chair, and Inspector General 
Horowitz, good to see you again----
    Mr. Horowitz. Good to see you.
    Mr. Biggs [continuing]. Across the table again, but this 
will have to do, I guess.
    Just a basic fundamental question. Should DHS and DOJ 
enforce the law?
    Mr. Horowitz. Certainly.
    Mr. Biggs. Yes. So, in 8 U.S.C. Section 1325, it makes it a 
crime to enter this country illegally, right?
    Mr. Horowitz. That is correct.
    Mr. Biggs. And you said earlier--you were talking about the 
misdemeanor. If you look under 8 U.S.C. 1325 you are going to 
find that any alien who crosses the first time that is a 
misdemeanor; every other time is a felony. Is that right?
    Mr. Horowitz. That is correct, and there are other 
aggregating factors that could make it into a felony.
    Mr. Biggs. Exactly. Right. So, your report states that 
prior practice was not to prosecute family units or even the 
adult members of family units, and that is what people like 
would say that is the catch and release program, right?
    Some of us would say that was an incentive or magnet for 
people to come to this country illegally. Does 8 U.S.C. Section 
1325 have an exception for adults if they are part of a family 
unit, an exemption from prosecution, if you will?
    Mr. Horowitz. No, it does not contain such an exception.
    Mr. Biggs. So, we are focusing on old policies and the 
rollout was not good. There is anybody that would say it was. 
It didn't--and it was a very short-lived policy that affected a 
good number of children and families, and also those who were 
exploiting as well.
    And I would suggest that the policy that we are talking 
about today also puts children in danger and exploitation and 
being trafficked, and then some of the things that are being 
proposed by this administration--I am going to review them real 
quickly--also become magnets or incentives: stopping 
construction of the wall, ending new enrollments in the MPP, an 
executive order that suggests that the asylum cooperative 
agreements with Guatemala, El Salvador, and Honduras are going 
to end, potentially ending the CDC's Title 42 order, preventing 
ICE from using terms such as ``alien'' and stopping 
deportations for 100 days, which has, luckily, been blocked, 
and last but not least, the biggest magnet of them all is talk 
of amnesty.
    And so if the past is any indicator, open border policies 
and these types of policies actually incentivize people to come 
to this country and bring children with them, even those that 
aren't their own, and that allows cartels and human smugglers 
to exploit children in a way that I have seen firsthand.
    I have watched the cracking of cases nationwide originating 
in Yuma, tracking down all the way to Charleston, South 
Carolina, where two young boys were repeatedly used as, 
basically, rent-a-childs, unfortunately, for those poor 
exploited children, to bring adults, unscrupulous adults, 
trying to use the family policy--family release policy.
    In Fiscal Year 2013, there were 14,855 apprehensions of 
family units on the Southwest border. But by 2018, there were 
107,000 and in 2019 there were 473,000 family units apprehended 
on the Southwest border.
    I also want to highlight that the Biden administration 
anticipates this surge. They have opened up, as my friend from 
Georgia mentioned earlier, Mr. Hice, a new facility--not a new 
facility but they are reopening the Carizzo Springs facility, 
which received such disapprobation from my colleagues across 
the aisle not too long ago.
    So, I would suggest that we need to focus on the 
implications of the current administration's policies.
    Now, I want to turn for a second to the Ms. L case. Mr. 
Horowitz, are you familiar with the Ms. L case?
    Mr. Horowitz. Generally, I am. But not in the weeds, or 
specifically, Congressman.
    Mr. Biggs. OK. So, you would not--you would not know that 
of the original 3,000 children reportedly subject to the Ms. L 
case--and they have found many placements, reunified many--but 
right now the number looks to be somewhere between 400 and 500 
children that are not unified under the Ms. L case. Are you 
familiar with that?
    Mr. Horowitz. I am. The number I had seen was just over 500 
but it could be more recently reduced. I haven't been following 
it as closely.
    Mr. Biggs. All right. Do you--any idea why we haven't been 
able to reunify some of those?
    Mr. Horowitz. I can't say I know the--you know, the 500-
plus cases and how those came about and what those particular 
circumstances are.
    Mr. Biggs. Thanks for being here today, Inspector General.
    And Madam Chair, I have some documents I would like to 
enter into the record. Three of them are newspaper articles. 
One is a letter that I led with a number of my colleagues. 
``Biden Surge: 3,500 Migrants Caught at Border Daily, 'I'm 
Scared at What's Coming' '' from The Washington Examiner. 
``Biden Administration Prepares to Open an Overflow Facility 
for Migrant Children'' on CNN. ``Eleven Iranians Arrested in 
Arizona After Jumping U.S.-Mexico Border,'' The Washington 
Times. And then my letter dated February 4 today to the 
Honorable Alejandro Mayorkas, the U.S. Department of Homeland 
Security.
    Ms. Tlaib. Without objection.
    Mr. Biggs. Thank you.
    Ms. Tlaib. The gentlewoman from New York, Ms. Ocasio-
Cortez, is recognized for five minutes.
    Ms. Ocasio-Cortez. Thank you so much, Chairwoman.
    Inspector General Horowitz, thank you so much, along with 
the rest of our witnesses, for being here today. While reading 
through your report, I couldn't help but notice how time and 
again concerns about the child separation policy were raised by 
government officials during the time, only to be dismissed by 
Attorney General Sessions and his top DOJ advisors.
    Officials reported up to Sessions and his top advisors that 
they could not track children and, again, this was during that 
time. They reported that resources were being stretched to the 
breaking point and U.S. Attorneys reported that they could not 
even answer basic questions in court about the children that 
were being separated.
    So, I wanted to know, Inspector General Horowitz, was it 
your finding that Attorney General Sessions and his top 
advisors pushed to continue all prosecutions under the zero 
tolerance policy and, effectively, kind of disregarded these 
concerns?
    Mr. Horowitz. Yes. So, what we found was that this 
understanding that somehow this could happen in a day, 
prosecutions, or within 72 hours became readily apparent, as 
you indicated, Congresswoman. Once it was implemented on May 4, 
going forward, reports kept coming in through U.S. Attorneys, 
meetings that were occurring, that this was a problem, that 
prosecutions weren't happening in that time period. And so that 
misunderstanding became clear, and that HHS and DHS were having 
trouble reuniting the adults, once they were prosecuted and 
sent back, with the child.
    That information became apparent, and it was even 
highlighted, frankly, beforehand, again, as we talked about 
earlier, with the El Paso Initiative, which the department got 
a briefing on in late December and had they asked these same 
problems, you know, were readily apparent from that initiative.
    Ms. Ocasio-Cortez. I was also struck that when your office 
interviewed these former DOJ officials, they all tried to 
deflect blame and when asked about the rampant difficulties 
that other agencies had in tracking and reunifying families, 
the former Deputy Attorney General Rosenstein said, quote, 
``That is an issue that they should have flagged. I just don't 
see that as a DOJ equity.''
    Now, when top DOJ officials learned that children were 
being held by Border Patrol for longer than 72 hours, which was 
violating Federal law, did DOJ stop the zero tolerance policy?
    Mr. Horowitz. So, as all of this was occurring in May and 
these reports were coming out, there was no change in the zero 
tolerance policy. It only ended on June 20 with the executive 
order being issued that ceased it to be allowed to go forward.
    Ms. Ocasio-Cortez. So, they--so they didn't. They knew that 
children were being held longer than 72 hours. They knew that 
Federal law was being violated in the detention of these 
children and they--and they continued the policy anyway.
    In fact, it seems Sessions dismissed this issue by pushing 
for even faster prosecution, saying, quote, ``We are in post-9/
11 mode.''
    You know, Deputy Attorney General Rosenstein claimed that 
it--that he would have supported the U.S. Attorneys if they 
said they would no longer prosecute all these parents. But Mr. 
Rosenstein also noted that AG Sessions was, quote, adamant that 
this program needs to continue, right?
    Mr. Horowitz. That is correct. That is what we were told 
and that even if information started coming in from the U.S. 
Attorneys that there was this problem with unifying children 
who had gone to HHS.
    That was the response they heard from the department 
leadership, that this was a problem that was not going to be 
addressed through changing the policy and, after all, you know, 
if the department had not taken the cases, obviously, the 
separations wouldn't have occurred. It was the department that 
had to accept the cases for prosecution.
    Ms. Ocasio-Cortez. So, I think that really gets to the 
heart of this matter, which is that this was a deliberate 
choice. You know, whether or not, like, were these DOJ 
officials really powerless to stop these separations. It seems 
that they weren't.
    Inspector General Horowitz, what would have happened if 
the--if AG Sessions and the Justice Department simply said that 
they were going to return to prior longstanding policy and no 
longer prosecute all arriving parents?
    Mr. Horowitz. If the department stopped agreeing to accept 
these adults for prosecution, it wouldn't, obviously, have been 
transferred to the Marshals Service.
    They would have remained in DHS custody with the child that 
they were traveling. The child then wouldn't have been 
separated by being sent to HHS because they wouldn't have been 
unaccompanied. And so the separations would have stopped.
    Ms. Ocasio-Cortez. Thank you. Thank you very much.
    Ms. Tlaib. The gentlewoman from New Mexico, Ms. Herrell, is 
recognized for five minutes.
    Ms. Herrell. Thank you, Madam Chair, and thank you, Mr. 
Horowitz. I believe your report is very important.
    I do want to kind of piggyback on what Congressman Higgins 
said--played earlier, that President Trump eliminated loopholes 
in the asylum laws, increased funding for the border security, 
and brought calm to the chaos that we witnessed in 2018 and 
2019 along the border. Abruptly ending the successful 
initiatives will only bring back those days of chaos.
    In regard to child separation, it is clear the court 
reinterpretation of the Flores agreement is driving illegal 
immigration. Those with children used this agreement to skirt 
the consequences of our immigration system, and without 
consequences, illegal immigration will only skyrocket.
    Families should be kept together during their immigration 
procedures. The reinterpretation of the Flores settlement 
agreement forbids that. It is important to ensure that there is 
humane care for those in custody.
    Perversely, reverting to catch and release encourages the 
dangerous journey and puts more lives at risk to smugglers and 
cartels that prey on migrants. Many are beaten, raped, and 
killed on the journey to the United States.
    The answer is that cases need to be processed faster. 
However, immigration law cannot simply be ignored. I will work 
with any of my colleagues who want to streamline the 
immigration process by adding more judges, immigration lawyers, 
and courtrooms.
    No one wants prolonged detention. Adding resourcing to 
Immigration and Customs Enforcement and the Department of 
Justice, not just defunding them as some of my colleagues have 
proposed, will help rapidly adjudicate immigration cases and 
minimize time in custody.
    We must also face the reality that most of these cases 
likely are not valid asylum cases. Historically, only about 21 
percent of applicants receive asylum. Without detention, many 
illegal immigrants will show up to court and will not obey 
court orders of removal.
    According to ICE, only 7 percent of family units with 
orders of removal are deported when not held in custody. Such 
statistics only exacerbate the immigration crisis and lead to 
more migrants taking this dangerous journey.
    Inspector Horowitz, would you agree that the Flores 
settlement agreement as interpreted by the Ninth Circuit Court 
of Appeals has made it impossible to hold families together 
during the course of their immigration proceedings?
    Mr. Horowitz. Congresswoman, I am not really in a position 
to comment on the impact of the Flores settlement. That 
wasn't--I can as to what it had here and the impact it had in 
this situation. But, more broadly speaking, we didn't look at 
that and that would, largely, be a Department of Homeland 
Security impact as well.
    Ms. Herrell. Right.
    And, Madam Chair and Inspector, thank you. This is 
something maybe we need to look at further as we move through 
this process.
    I want to thank the chairwoman and members for holding this 
meeting and I yield back my time.
    Ms. Tlaib. The gentleman from Maryland, Mr. Sarbanes, is 
recognized for five minutes.
    Mr. Sarbanes. Thank you, Madam Chair. Can you hear me OK?
    Ms. Tlaib. Yes, sir, we can.
    Mr. Sarbanes. Thank you. Inspector General Horowitz, thank 
you for your presentation today, your work not just on this 
matter but on so many, which has been a critical resource for 
this committee and for Congress over a period of many, many 
years. I want to thank you for that.
    I wondered--I know that this is, largely, a look back 
hearing. That is the focus of it. But I wondered if you might 
speak to what you think the opportunities for reunification of 
these children with their parents and their families might be 
through the lens of the breakdowns you saw from the review that 
you did.
    So, in other words, presumably, there is evidence that you 
discovered that when separations occurred the records that 
should have been kept were not kept.
    The sort of custodial sequence of events wasn't properly 
captured, et cetera, and that must give you some insight and 
perspective as to how difficult it is going to be to try to 
reunify these children with their parents.
    So, if you could maybe speak broadly to that but also maybe 
identify two or three or four breakdowns in the process that 
you were able to review that you think are going to be 
contributing factors to the challenge that we will now have in 
trying to reunify these families.
    Mr. Horowitz. Right. Well, let me say, Congressman, that, 
you know, in the first instance, you would expect if anyone was 
going to be undertaking such a policy in the future, going 
forward, that you would, at a minimum, want to get together 
with the key stakeholders at the Justice Department, Department 
of Homeland Security, Health and Human Services, and figure out 
how to create a effective recordkeeping system that would 
enable you to know who entered the country with which traveling 
companion, including a child, so that if one of those 
individuals gets separated from the others, you know who is 
with whom.
    That sounds obvious, but it didn't happen here. And so you 
ended up in a situation where adults went to the Justice 
Department, children went to HHS, and DHS could connect the two 
and, as we noted, the Marshals Service didn't have a 
relationship with HHS where they could connect the two.
    So, that is, obviously, with electronic records, computer 
records today. You would think that would be something that 
would be easily done. But it wasn't done here.
    Mr. Sarbanes. What is the implication of that for the 
efforts to reunify? Where do you expect that there is going to 
be the most difficulty in tracking or making these connections 
from one agency to the next? I mean, you have spoken broadly 
but can you be a little more specific?
    Mr. Horowitz. So, I think one of the bigger challenges and, 
of course, this is part of the litigation that is ongoing now, 
and so the civil division lawyers at the Justice Department who 
are handling it, along with those at DHS and HHS, have probably 
the best insight into that.
    But my sense is, from looking at this and, you know, this 
is my informed information based on what we have looked at, is 
that some, if not many, of these adults or most of these adults 
had been deported already and so they are in another country 
while the children are still here.
    And if you haven't taken the steps or didn't take the steps 
back in 2018 to make sure you knew which adults were connected 
to which children, you now have to go through that process to 
make sure that the parent or adult coming forward is in fact 
the individual connected to that child. You don't want to 
create further problems.
    So, my sense is----
    Mr. Sarbanes. Let me ask you one more question.
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Sarbanes. Oh, OK. I yield back. Thank you.
    Ms. Tlaib. The gentleman from South Carolina, Mr. Norman, 
is recognized for five minutes.
    Mr. Norman. Thank you, Chairman Tlaib.
    Inspector Horowitz, it looks like under the Biden 
administration we are going to be admitting millions of people 
coming across the border, 3,000 migrants from Honduras, vans 
everywhere.
    How is that going to affect--how is that going to affect 
the crisis we have with COVID? Will all of them be tested at 
the border? Will they go to the hospitals? How will that work?
    Mr. Horowitz. Well, Congressman, I am not really in a 
position to answer that. You would really have to, and I can 
certainly help facilitate that, ask those at the Department of 
Homeland Security Border Patrol what their plans are with 
regard to how to handle that at this point in time. We didn't 
look at that, and, again, it is a Department of Homeland 
Security Border Patrol question.
    Mr. Norman. Yes, but it affects Homeland Security. I mean, 
it falls under--if it doesn't fall with you, who does it fall 
under?
    Mr. Horowitz. So, within Department of Homeland Security 
and their inspector general's office and their oversight of 
Border Patrol, but also the Border Patrol directly.
    Mr. Norman. And so they--from your understanding, they will 
hire the doctors or will they go to the hospitals, or do you 
just now know?
    Mr. Horowitz. To be honest, I do not know how they plan to 
handle that.
    Mr. Norman. OK. You admit we have got a pandemic, don't 
you?
    Mr. Horowitz. Oh, I, certainly, don't deny we have a 
pandemic.
    Mr. Norman. And this probably won't help it, I would think. 
But this goes to my next question.
    How can we improve the coordination between the DOJ, DHS, 
and HHS without adding more Federal debt and, I guess, being 
fair to the--to the immigrants that are going to be admitted 
into this country carte blanche?
    Mr. Horowitz. Congressman, having been in the Justice 
Department on the prosecuting side and now as the inspector 
general, I don't think it requires spending any money.
    I think it just requires getting the appropriate working 
group at a high level at those entities that sit down with the 
line level people who know what is really going on day to day, 
and say OK, how do we make this work through our three agencies 
coordinating.
    It is, frankly, not, I don't think, that complicated. It 
doesn't require a lot of expense and, frankly, in today's video 
age, you don't even have to travel to get in a room together. 
You can do it by video.
    Mr. Norman. So, is it your testimony that if we admit 
millions into this country it is not going to cost this country 
anything, particularly with the testing of--I guess, assume 
testing for the COVID and to make sure the pandemic doesn't 
extend to 355 million Americans?
    Mr. Horowitz. No, Congressman. What I was talking about was 
making sure there is a coordination between the three. I wasn't 
talking about what they end up--how they end up implementing 
it.
    But the coordination, which was a basic flaw here, doesn't 
require much other than meeting and understanding what the 
issues were as happened after the policy was implemented. But 
that should have been done beforehand.
    Mr. Norman. OK. But the coordination is going to result in 
actions. The actions are going to follow. So, when you admit 
that many people or if you took out that many people from the 
country that will have a financial impact, correct?
    Mr. Horowitz. Well, yes, I would expect that putting in 
place certain steps would require some funding.
    Mr. Norman. Yes, a good many--a good deal of funding, I 
would guess.
    How long after the implementation of the zero tolerance 
policy was that executive order issued? Do you--are you--do you 
know?
    Mr. Horowitz. It was about six weeks. Well, I am sorry, it 
was about two and a half months after the zero tolerance policy 
was announced on April 8--I am sorry, April 6--as the president 
issued the executive order on June 20.
    Mr. Norman. OK. OK, Ms. Chairman. I yield back.
    Mr. Horowitz. Thank you, Congressman.
    Ms. Tlaib. The gentlewoman from California, Ms. Speier, is 
recognized for five minutes.
    Ms. Speier. Thank you, Madam Chair.
    Inspector General, once again, you show we lucky we are 
that you are in the position that you are. Thank you for the 
service that you have given to us and the Department of Justice 
since 2012.
    I have had two trips to the border, one to McAllen, one to 
Brownsville, and I have seared in my memory two images in 
particular: a young girl, maybe four years old, in a cell at 
Border Patrol sobbing because she had been separated from her 
mother and then hundreds of kids in cells throughout that 
region, and then a separate one where I was meeting with others 
who had been separated from their children. Some of them were 
still breastfeeding their children and they didn't know where 
they were.
    So, you have underscored for us how this was implemented 
without any forethought and I have a few questions in 
particular. The record shows that child separations were 
harmful, traumatic, and chaotic, much more so than previously 
known. In fact, there were infants and toddlers that were 
separated from their families.
    Can you speak to whether or not DOJ officials knew that 
they were separating extremely young children from their 
parents?
    Mr. Horowitz. They, certainly, knew after implementation in 
May and June when complaints and questions started coming from 
the Southwest border U.S. Attorneys, both their own concerns 
and the concerns they were hearing from judges about those 
separations and the fact that children, infants, toddlers, and 
young children were being separated.
    Ms. Speier. And no special procedures were put in place to 
mitigate the trauma for these young children?
    Mr. Horowitz. That is correct.
    Ms. Speier. So, it was a truly callous act within the 
Department of Justice in not stepping in and providing some 
kind of mitigation.
    Mr. Horowitz. There was no effort to step in and change 
that. There were meetings and discussions, but until the 
executive order was issued on June 20 there was no changes to 
the approach.
    Ms. Speier. So, in your review, did you discover any 
physical and psychological harm that was done to these 
children?
    Mr. Horowitz. We didn't, Congresswoman, undertake that 
effort to look at the impact on the children, particularly 
since, you know, as has been talked about, there was an ongoing 
court case about that very--those very issues.
    Ms. Speier. You mentioned that there was over $200 million 
in budget deficit in the Marshals Service due to child 
separation. Have you been able to ascertain how much money has 
been spent as a result of this child separation disaster?
    Mr. Horowitz. We didn't get to an overall number. It would 
not only be, as you indicated, for the Justice Department, the 
Marshals Service. Obviously, also the additional costs for the 
U.S. Attorneys to the extent they added people to handle this. 
The courts would have had, potentially, some additional costs, 
DHS, HHS. We didn't go in and look at what those other costs 
would be as well.
    Ms. Speier. Is that something you could undertake in short 
order without making it a massive effort to find out just 
within the Department of Justice what the costs of child 
separation were?
    Mr. Horowitz. Yes, we can, certainly, make the inquiries of 
the appropriate components here at the Department to see if 
they gathered that data and what it would be, and we can also 
make contact with our counterparts in the OIGs at DHS and HHS 
and see if they have that data, based on the reviews they did.
    Ms. Speier. Madam Chair, I certainly would appreciate that 
if that would be appropriate.
    I would also like to ask you about the numbers. When it 
first became apparent that children were being separated, the 
numbers were indicated to be, like, 400, 500.
    And yet, within that short timeframe of May to June, you 
estimate that there were 3,000 children that were separated and 
probably much more over the course of the period in which this 
was in effect.
    Do you have any numbers that you could share with us or any 
evidence that there was an effort to tamp down the numbers?
    Mr. Horowitz. So, I have seen reports and numbers, largely, 
again, from the Department of Homeland Security Office of 
Inspector General and their work on this because DHS would be 
the keeper of what those numbers look like.
    The numbers that we have seen were in excess of 3,000 that 
they have reported. I have seen numbers reported as high as in 
the 5,000 range. But, again, we will followup, Congresswoman, 
and let you know what we have on that and what we can get from 
our counterparts at the OIGs.
    Ms. Speier. Thank you. My time has expired. I really 
appreciate your work.
    Mr. Horowitz. Thank you, Congresswoman.
    Ms. Tlaib. The gentleman from Florida, Mr. Donalds, is 
recognized for five minutes.
    Mr. Donalds. Thank you, Madam Chair.
    To the IG, thanks so much for, you know, coming here and 
joining us, bringing your report.
    You know, I think it was said by, you know, one of my 
colleagues a little bit ago that this is, you know, really more 
of a look back meeting, and I think it is always interesting to 
learn things from the past.
    Obviously, you know, some of the issues for the zero 
tolerance policies have already been discussed so no need to 
really belabor that point.
    I do think it is important that, you know, that this 
committee also take a look at what is currently happening and 
also what has happened, you know, as a result since the end of 
zero tolerance policy back in 2018.
    You know, Mr. Horowitz, I wonder if you can comment for the 
committee on what actually has occurred with respect to 
enforcement after zero tolerance policy was ended by the 
previous administration in 2018.
    Mr. Horowitz. Congressman, I can't really speak to in any 
detail what occurred after that other than understanding that 
the DHS went back to its prior historical practice of not 
referring adults for prosecution except in limited--very 
limited circumstances.
    Mr. Donalds. OK. So, basically, in your words, what we have 
done since then is, you know, unfortunately, the spigot has 
just reopened and we are back to square one on the problem we 
do have, which is when people come to our border illegally 
they, essentially, are released into the United states, which 
does create other consequences and other unintended 
consequences for the citizens of the United States and, 
actually, with respect to legal immigrants who do come through 
proper channels.
    The only other question I really have for you, Inspector, 
is, you know, right now the Biden administration is going 
through the halting of several immigration policies from the 
previous administration.
    Can you speak to the halting of the MPP program--for 
everybody else who may not know, the Migrant Protection 
Protocols--and what the impact of that might actually be on the 
United States?
    Mr. Horowitz. Congressman, I am, obviously, aware of the 
policy. We haven't done any work on that so I am not really in 
a position to speak to what was going on beforehand and what 
may be occurring going forward in light of any changes that 
are--that have been happening.
    Mr. Donalds. Well, what I think what I will do is I will 
just expound briefly. So, the MPP program, what it actually 
allowed for was the halting of people who are not legally 
admissible to the United States to actually have them held in 
Mexico as opposed to them coming to us on the border.
    With President Biden halting that program, what we are 
seeing the results are caravans of people, whether they might 
be minors or adults, coming to our southern border illegally, 
which does create issues not only for border enforcement, not 
only for--not only for the people who actually live on the 
southern border, our ranchers and the like, but also creating 
some undue burdens on citizens here in the United States.
    So, I think it is important that if we are going to 
continue to do these look back oversight meetings, we actually 
also hold oversight meetings on what the current administration 
is doing and the results it will have not only on immigration 
policy but on the citizens at large.
    With that, I yield back the rest of my time.
    Ms. Tlaib. The gentlewoman from Illinois, Ms. Kelly, is 
recognized for five minutes.
    Ms. Kelly. Thank you, Madam Chair. Thanks for calling this 
meeting and thanks to the witness.
    This new report from the DOJ IG is the latest in several 
nonpartisan reports from the last few years detailing the 
horrors of the Trump administration's child separation policy.
    I wanted to use my time to highlight two previous reports 
from the DHS inspector general on this topic.
    First, in September 2018, the DHS inspector general 
released an initial report on the zero tolerance policy. This 
report found that the Trump administration officials had 
falsely claimed in June 2018 that there was a, quote, ``central 
data base tracking separated families.'' The DHS inspector 
general found, quote, ``no evidence that such a data base 
exists.''
    Inspector General, can you draw a comparison to your 
report's finding that DOJ prosecutors were unable to determine 
location of separated children when asked by courts?
    Mr. Horowitz. Congresswoman, it is precisely that problem 
that no one had set up an appropriate tracking mechanism which 
the DHS OIG report, as you indicated, highlighted was one of 
the problems.
    Ms. Kelly. OK. The inspector general also concluded that 
the child separation policy took away critical resources from 
other DHS missions including, quote/unquote, ``patrolling and 
securing the border.''
    Your report found that these policies took away critical 
resources from DOJ missions as well. Can you elaborate on the 
impact of child separations on other missions that DOJ 
components are supposed to carry out?
    Mr. Horowitz. Certainly, Congresswoman.
    So, for the Marshals Service, for example, what we heard 
was its impact on its budget, creating a $200 million plus 
impact on its budget which, obviously, impacts all work, but 
also the need for the Marshals Service to bring in additional 
resources--other deputy marshals, other personnel, to help 
manage the influx of defendants that were coming in to the 
Southwest border, which meant pulling people off of, for 
example, task forces that involve and execute arrest warrants 
for wanted fugitives, other priority items for the Marshals 
Service.
    In addition, we heard from the U.S. Attorneys that it 
impacted their ability to prosecute certain other cases and, 
obviously, there are only so many prosecutors out there. There 
are only so many courtrooms. There are only so many judges to 
handle those cases. And so if you shift priorities, you create 
an issue.
    Ms. Kelly. Thank you.
    A second report from the DHS inspector general issued in 
November 2019 found that the DHS lacked the technology needed 
in order to successfully track separated families.
    Your report cites to this one several times. From your 
review, did the Trump administration resolve these 
technological issues as separations increased, and what other 
coordination issues did you observe in your review?
    Mr. Horowitz. So, one of our concerns was as it became 
apparent in May that there was a challenge and a problem with 
reunifying children with the adults, in fact, nothing changed.
    And so there were no efforts to respond to it as we found 
at the department. There were discussions, but there weren't 
steps taken. The policy remained in place. The separations 
continued to occur.
    The department continued to accept adults for prosecution 
even as it became apparent that DHS and HHS were having this 
problem with reunifying because of the lack of tracking.
    Ms. Kelly. Well, I just want to thank you again for your 
patience. I want to encourage my colleagues and officials in 
the Biden administration to really digest the findings from all 
of the reports.
    Thank you so much, and I yield back.
    Ms. Tlaib. The gentleman from Kentucky, Mr. Comer, is 
recognized for five minutes, our ranking member.
    Mr. Comer. Thank you, Madam Chair.
    Inspector General Horowitz, isn't it the case that before 
the zero tolerance policy was initiated and then after it was 
ended the general practice was not to refer adult members of 
family units for criminal prosecution for misdemeanor illegal 
entry?
    Mr. Horowitz. That is correct, Congressman.
    Mr. Comer. I believe it was more often the case that border 
officials would simply process those family units together for 
administrative violations of immigration law.
    Mr. Horowitz. That is our finding.
    Mr. Comer. Issued them paperwork, including a notice to 
appear in immigration court and then released them to the 
interior of the United States. Is that correct?
    Mr. Horowitz. That is my general understanding.
    Mr. Comer. Well, this is an important point. One of the 
reasons why we saw so many family units arriving in recent 
years, in my opinion, that adults who bring children into the 
U.S. illegally could all but guarantee their release into the 
interior of the U.S. while they wait for immigration 
proceedings to play out, which can take years, given the 
current immigration backlog.
    Inspector General Horowitz, isn't it true that this 1997 
settlement in Flores v. Reno, known as the Flores settlement 
agreement, sets the standard for the Federal Government's 
treatment of detained children and that because of this 
settlement agreement, children cannot be held in administrative 
immigration detention facilities together with their parents 
for longer than 20 days?
    Mr. Horowitz. I believe it is both the Flores settlement 
and then there is also the Trafficking Victims Protection 
Reauthorization Act, which codified some of that--those 
settlement provisions.
    Mr. Comer. So, that means that a person who illegally 
crosses the border with a child is, in most cases, simply 
released from Customs and Border Protection custody to await 
further immigration court proceedings. Is that right?
    Mr. Horowitz. That is, certainly, you know, one of the 
options that has to be undertaken in light of the law.
    Mr. Comer. OK. Well, those high numbers we saw family units 
crossing illegally, they reached a peak in the spring of 2019. 
But the numbers were starting to come down due to reforms the 
Trump administration put in place, which is what a majority of 
Americans want and expect.
    The Trump administration also put in reforms to the asylum 
system to ensure that people fleeing due to persecution would 
seek protection in the first safe country they arrived in, and 
that is a point that has not been made by the majority.
    Yet, President Biden, as one of his first acts in office, 
suspended enrollments in Migrant Protection Protocols. He has 
also vowed to rescind the safe third country agreements and 
roll back asylum for law reforms put in place by the Trump 
administration to ensure asylum integrity.
    But the open border lobby isn't satisfied with that. They 
want an end to the order issued by the CDC that allows 
immigration officials to immediately expel illegal border 
crossovers to prevent COVID-19 from spreading in border 
facilities.
    That would fit in with the Biden plan which, apparently, 
wants to vaccinate illegal aliens before they vaccinate 
Americans. The open border lobby also want to put an end to 
civil immigration detention capabilities altogether. They want 
to implement the failed policy of catch and release all over 
again.
    Combined with the reckless policies of gutting interior 
enforcement priorities, halting all construction of physical 
border barriers, and announcing an amnesty plan for 11 million 
people living in the United States illegally.
    I am concerned that, once again, our border will be overrun 
and we will start seeing another security and humanitarian 
crisis.
    In closing, I urge the Biden administration to turn back 
now. Listen to the experts, not the open border lobby. Build on 
the reforms put into place over the last years and don't tear 
them down.
    And with that, Madam Chair, I yield back the balance of my 
time.
    Ms. Tlaib. The gentlewoman from Michigan, Mrs. Lawrence, is 
recognized for five minutes.
    Mrs. Lawrence. Thank you, Madam Chair.
    I firmly believe a politician without compassion is a 
criminal, and what we saw happen to these children being 
separated from their parents is criminal.
    At our hearing in July 2019, Elora Mukherjee, a professor 
and volunteer attorney working with children detained along the 
border, testified about her visit to the Customs and Border 
Patrol facility in Clint.
    She quoted, ``Children are hungry. Children are 
traumatized. They constantly cry and some wept in their 
interviews with me. One six-year-old girl detained all alone 
could only say, 'I am scared. I am scared. I am scared,' over 
and over again. She couldn't even say her name.''
    Inspector Horowitz, to your knowledge, did Attorney General 
Sessions or department leadership ever inquire about the 
condition of the children in the detention center that housed 
them once they had been removed from their parents?
    Mr. Horowitz. Congresswoman, I don't know, as I sit here, 
if they ever did that. What I can say is there was no effort to 
change the policy while it was underway as reports came in 
about the problems that were occurring with reunification.
    Mrs. Lawrence. I want to play a video of an interview of a 
teenage girl recently reunited with her mother.
    Will the committee please play the video?
    [Video shown.]
    Mrs. Lawrence. Committee, I am really troubled about the 
protection of previous policies without having the compassion 
to recognize what these children, based on directions of an 
administration and this House, have gone through.
    I want to ask you again, Inspector, to your knowledge did 
Attorney General Sessions or department leadership make any 
effort to mitigate the trauma to children caused by family 
separation under the zero tolerance policy?
    Mr. Horowitz. We didn't see evidence of any effort to 
mitigate the impact of it when--between the May 4 start date 
through the June 20 executive order other than the only thing 
we saw were additional meetings and discussions, for example, 
with the courts. But the policy remained the same.
    Mrs. Lawrence. These stories are hard to hear, but we 
cannot forget that the suffering caused by the Trump 
administration's inhumane immigration policies continue to this 
day. We cannot ignore the pain our country has caused these 
children.
    We must right this wrong and we must ensure that these 
atrocities never happen again. We have a responsibility for the 
harm that we have caused, based on a direction of an 
administration and their leadership.
    Thank you, and I yield back.
    Ms. Tlaib. The gentleman from Illinois, Mr. Davis, is 
recognized for five minutes.
    Mr. Davis. Thank you, Madam Chairman, and I want to thank 
you, Inspector, for not only your work but being here with us 
today.
    Let me begin by just simply stating that I think the zero 
tolerance policy is really one of the most horrific ideas that 
anyone could come up with in relationship to trying to get a 
handle of or control the flow of immigrants coming into our 
country, which professes to say, give me your tired, your 
huddled masses.
    And so I just want to make it known that I think the policy 
was corrupt from the beginning. Not to be redundant, but under 
questioning from representatives before you indicated that you 
saw no effort on the part of our government authorities to 
change the policy.
    But did you see any corrective action as you looked and as 
you searched and as you did your work? Did you see any 
corrective action in relationship to those individuals who had 
already been separated?
    Mr. Horowitz. Congressman, I mean, we--you know, what we 
saw was this mistaken belief before the policy was announced, 
the failure to coordinate before the policy was announced, and 
when the policy was implemented in May, on May 4, with the 
separations occurring and the problems arising and the notice 
coming up, that was additionally concerning to us because there 
weren't efforts undertaken to mitigate it that way. The policy 
continued until it was--the executive order was issued by the 
president on June 20.
    Mr. Davis. Do we understand or do we know what, to the best 
of your knowledge, how many children and families are still out 
there, disconnected?
    Mr. Horowitz. So, based on our review and what we have seen 
in the ongoing civil litigation, the lawsuit that is going on, 
the last number I saw was just north of 500 and, again, I am 
not, obviously, following it day to day but that is 
approximately what the number was that I saw of the estimates.
    Mr. Davis. As you researched and looked and unraveled and 
dissected, did you glean any indication of how long it might 
take to correct this action or to reconnect?
    Mr. Horowitz. Well, from the court filing it looks like it 
is a very significant challenge and it is unclear, frankly, how 
long it might take because some of the parents, obviously, are 
no longer in the country and reuniting in that circumstance and 
even identifying connectivity--you know, connections between a 
parent and a child or an adult and a child at that point is a 
challenge.
    Mr. Davis. Well, as others have done, let me commend you 
for your work, for your service to our country, and thank you 
very much, Madam Chair.
    And I yield back.
    Ms. Tlaib. The gentleman from California, Vice Chair Gomez, 
is recognized for five minutes.
    Mr. Gomez. Thank you, Madam Chair.
    What can I say about this hearing? I look at this hearing 
as, like, accountability and lessons learned from the Trump 
administration's child separation policy. I only learned one 
lesson--you know, one main lesson, which is this never should 
have happened. Never should have happened, and it infuriates me 
because they--this administration didn't care about the 
repercussions and the trauma that would be caused to these 
children. They didn't care. It was--it was so tunnel-visioned 
when it came to trying to enforce immigration laws to prevent 
people from coming, and they did it in a way in order to 
dissuade and try to create a situation where parents wouldn't 
want to come. They wanted to make it so bad that parents would 
decide not to come to the United States.
    Coming from parents that did immigrate from Mexico, you 
know, a lot of these folks are desperate. They are oftentimes 
facing hard economic situations, hard--you know, they are 
facing violence.
    My parents faced just tough, tough times. Lived in a one-
room adobe house in Mexico. And people are asked, are you going 
to take that risk?
    Yes, they are going to take that risk because it is, like, 
they can risk coming here and making it or they can stay back 
home and having their kids die of either violence or starvation 
and, for them, it is a risk worth taking.
    But this administration didn't care about the consequences 
and the impact it would have on kids. So, the main lesson I 
learned is that this never should have happened at all, and now 
we can pick it apart and find out what they didn't do right and 
hold them accountable, which we are going to do. But it just 
shouldn't have happened from the beginning.
    One of the things is that we know that it has tremendous 
impact on the kids that were separated, psychologically. The 
trauma associated with it is so severe. I want to read a quote 
from the former president of the American Psychological 
Association, Dr. Jessica Henderson Daniel.
    It says, ``The longer that children and parents are 
separated, the greater the reported symptoms and anxiety and 
depression for the children. Negative outcomes for children 
include psychological distress, academic difficulties and 
disruptions in their development.''
    In fact, because there is so much risk of harm, the 
American Psychological Association has made reunification of 
children with their families one of its top priorities. Other 
medical professionals agree.
    Dr. Colleen Kraft, a former president of the American 
Academy of Pediatrics, said studies overwhelmingly demonstrate 
the irreparable harm caused by breaking up families.
    So, Inspector Horowitz, are you familiar with these 
opinions of long-lasting impact on trauma of the children?
    Mr. Horowitz. Congressman, I, certainly, read the articles 
about them and seen various experts speak to that.
    Mr. Gomez. And, you know, you know and I know we don't 
really need the experts to tell us that that was going to 
happen. But it just reinforces just how devastating this policy 
was for these families.
    Your review found also that Attorney General Sessions and 
the Justice Department leadership knew that children would be 
separated from their parents as a result of the zero tolerance 
policy. Is that correct?
    Mr. Horowitz. That is correct.
    Mr. Gomez. So, they knew--I can assume that they knew that 
the trauma that would be caused by separating the kids--let us 
say they knew that--but they did it anyways, and that is the 
shame of this zero tolerance policy, that this administration 
engaged in it but didn't care about the consequences and the 
impact--the negative impact it would have on the kids.
    Maybe it is because they didn't believe that kids of 
undocumented immigrants deserved any more care and 
understanding and didn't care if they were harmed because they 
weren't, quote/unquote, ``U.S. citizens.''
    So, it is something that is still troubling me. I went down 
to the border--I actually slept on the border--to watch some of 
the asylum seekers get in and everything from this 
administration, when it came to immigration, was just terrible 
because they didn't care about the repercussions it would have 
on anybody.
    So, it is something that we have to fix. I am still really 
troubled by the fact that these kids have been--there are still 
some kids that have been separated. How many have--are still 
separated and how many are we trying to still reunite, and is 
it even possible?
    Ms. Tlaib. The gentleman's time has expired.
    Mr. Horowitz. So just, you know, in terms of the numbers, 
the last numbers I have seen from the court litigation is 
around 500 still being separated--still separated from the 
adult that they traveled here with, and, obviously, the 
challenges in reunifying in that circumstance when the child is 
here and the adult is overseas are pretty substantial.
    Mr. Gomez. Thank you. I yield back.
    Ms. Tlaib. The gentlewoman from Massachusetts, Ms. 
Pressley, is recognized for five minutes.
    Ms. Pressley. Thank you, Madam Chair.
    Many of our colleagues on either side would have us believe 
we must simply move on from the horrid policy violence enacted 
on so many marginalized communities over the last four years of 
the Trump administration.
    Well, I, certainly, refuse to just move on. To be clear, we 
will not move on until there is accountability, until there is 
restitution, until there is justice for these families, and 
until every single one of these 628 children are reunited with 
their parents. The trauma inflicted on these children by the 
U.S. Government will always be a dark stain on our Nation's 
history.
    I will never forget what I witnessed during our trip to the 
southern border, mothers who I held in my arms as they cried 
out for their babies and begged for help. It is something I 
will never forget, something our Nation must never forget, and 
something we as policymakers must ensure never happens again.
    And while today's hearing is on the Trump administration's 
cruel and callous family separation policy, it is important to 
recognize that for decades our immigration system has been 
built on separating families. From those seeking asylum at the 
border to the families preyed upon by ICE in the Massachusetts 
7th congressional District, and communities across the country 
every single day.
    So, we must look at this issue holistically and work to 
build an immigration system that finally centers the dignity 
and humanity of all our immigrant neighbors.
    So, Inspector General Horowitz, thank you for your work on 
this report. It is clear that the Trump administration 
officials knew full well the pain and harm they were inflicting 
with this policy.
    On Tuesday, President Biden signed an executive order to 
create a task force to reunify the hundreds of families that 
were separated as a result of this policy. It is an important 
step toward healing.
    But healing also requires that we hold these individuals 
accountable who were the cruel masterminds behind these 
policies. Your report notes that former Attorney General Jeff 
Sessions declined to be interviewed by your office as a part of 
the review.
    This was despite him being a driving force in leading DHS 
to separate families by referring parents for prosecution. Is 
that correct?
    Mr. Horowitz. That is correct.
    Ms. Pressley. Do you believe Mr. Sessions should have been 
interviewed?
    Mr. Horowitz. Absolutely.
    Ms. Pressley. He was, largely, responsible for implementing 
the zero tolerance policy and continuing to prosecute parents 
even after his own officials told him they could not provide 
basic information to courts about the separated families. Is 
that correct?
    Mr. Horowitz. That is correct.
    Ms. Pressley. Your report also found that Deputy AG Rod 
Rosenstein was also heavily involved in the decision to 
separate families. In fact, Mr. Rosenstein was recorded on a 
call instructing U.S. Attorneys not to decline any cases due to 
the age of children in family units.
    Like former AG Sessions, Mr. Rosenstein was also made aware 
of rampant problems from the U.S. Attorneys as separations 
increased.
    Does your investigation suggest that Mr. Rosenstein took 
any action to try to stop the policy, even as department 
resources were overwhelmed and thousands of families were being 
separated?
    Mr. Horowitz. So, what we found is the policy was 
implemented in May and in June. No steps were taken by the 
department, including by the deputy attorney general or others 
in the department to change the policy while it was underway, 
and that only ceased on June 20 when the executive order was 
issued. Mr. Rosenstein did go to meetings with the courts, did 
have meetings with the prosecutors, but the policy itself was 
unchanged.
    Ms. Pressley. Child abuse, plain and simple. I don't know 
how they sleep at night knowing they employed someone 
responsible for this type of injustice. It is really beyond me.
    Inspector General Horowitz, your report brings us closer to 
the truth. I look forward to working with my colleagues to 
ensure that it will bring us even closer to justice.
    Thank you, and I yield.
    Mr. Horowitz. Thank you, Congresswoman.
    Ms. Tlaib. Before we close, I want to recognize Ranking 
Member Comer for any closing remarks.
    Mr. Comer. Thank you, Madam Chair, and again, I want to 
thank Mr. Horowitz for testifying today and thank him for his 
work on this issue and many others.
    Clearly, the zero tolerance policy suffered serious 
implementation defects. I hope that with the inspector 
general's report these will never be repeated.
    But I remain concerned, as are most Americans, with our 
current border security situation and the policies of the Biden 
administration with respect to border security.
    I urge my colleagues to conduct oversight in this area. You 
know, we have spent the last two years with countless 
investigations of the Trump administration, and I know that 
this--the Democrats on this committee were addicted to 
investigating Donald Trump.
    But I have some news for you. Donald Trump is no longer 
president. Joe Biden is president. So, we have got a situation 
with respect to border security and with respect to our 11 
million Americans who are unemployed, with the hundreds of 
millions of Americans who currently haven't had access to COVID 
vaccine.
    But, yet, we spend more time today investigating the Trump 
administration. I am glad the Trump administration took the 
zero tolerance policy that was started by the Biden 
administration and corrected that.
    Now it is time to move on. It is time to focus on our 
border security, and I, again, urge President Biden and his 
administration to take the crisis at the border seriously and 
let us not repeat history.
    With that, Madam Chair, I yield back.
    Ms. Tlaib. Thank you.
    Inspector General Horowitz, I want to thank you and your 
staff for your critically important work we have been 
discussing today.
    Nearly two years ago, I went to the Southwest border and 
visited just a few of the thousands of children separated from 
their families as a result of the Trump administration's cruel 
and inhumane immigration policy.
    It was very difficult for me as a mother. I mean, what do 
you say to a child who is suddenly taken from their parents and 
doesn't know when they will see them again?
    What do you say to a child who sits all day in a fenced-in 
space they call, quote, ``icebox?'' What do you say to our 
children, our grandchildren, when they ask us how did this 
happen and what did we do about it?
    As you have heard today, Attorney General Sessions and 
other top officials in the administration knew this would 
happen. They intended it to happen. And even though Trump 
administration's cruel zero tolerance policy has been 
rescinded, the harm still exists and there is much work to do.
    We must demand accountability for the officials who 
instituted this policy with no regard for the trauma and 
lifelong consequences for the children it impacted.
    We must try to right the wrongs committed against these 
children, reunite those who remain separated to this day, and 
support the families as they deal with the deep trauma they 
have experienced. And we must ensure that our country, that we 
never, never needlessly separate children and weaponize them 
with trying to address the immigration crisis.
    Finally, before I adjourn today's hearing, I want to take a 
moment to express my deep condolences, all of our condolences, 
to our colleague, Jim Cooper, whose wife, Martha, passed away 
this morning. Our thoughts are with you and your family during 
this very difficult time.
    And because I want to also take care of two procedural 
matters, first, I want to recognize the ranking member to 
announce the subcommittee ranking members.
    Ranking Member Comer?
    Mr. Comer. Thank you again, Madam Chair, and we are very, 
very excited to have three returning ranking members to the 
House Oversight Committee.
    We have returning ranking member of the National Security 
Subcommittee, Mr. Glenn Grothman from Wisconsin, returning 
ranking subcommittee member of the Government Operations 
Subcommittee, Mr. Jody Hice from Georgia.
    We have returning as the ranking subcommittee member of 
Economic and Consumer Policy, Michael Cloud from Texas, and I 
am very pleased to announce two new ranking members for the 
Environment Subcommittee. Pleased to announce Ralph Norman of 
South Carolina will be our ranking member. And, finally, the 
new ranking member of the Civil Rights and Civil Liberties 
Subcommittee will be Mr. Pete Sessions from the great state of 
Texas.
    Yield back.
    Ms. Tlaib. Thank you.
    Next, the clerk has distributed two lists in advance naming 
both majority and minority members to subcommittees. I move 
that the list naming members to subcommittees be approved.
    Without objection, so ordered.
    Ms. Tlaib. Now, in closing, I want to thank our panelist 
for his remarks and I want to commend my colleagues for 
participating in this important conversation.
    With that, without objection, all members have five 
legislative days within which to submit additional written 
questions for the witnesses to the chair, which will be 
forwarded to the witnesses for his response. I ask the witness 
to please respond as promptly as you are able.
    This hearing is adjourned.
    [Whereupon, at 1:18 p.m., the committee was adjourned.]

                                 <all>
</pre></body></html>
